<html>
<title> - EDUCATING OUR CHILDREN TO SUCCEED IN THE GLOBAL ECONOMY</title>
<body><pre>[Senate Hearing 112-849]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 112-849
 
                   EDUCATING OUR CHILDREN TO SUCCEED 
                         IN THE GLOBAL ECONOMY 

=======================================================================

                             FIELD HEARING

                                 OF THE

                    COMMITTEE ON HEALTH, EDUCATION,
                          LABOR, AND PENSIONS

                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                                   ON

              EXAMINING EDUCATING OUR CHILDREN TO SUCCEED 
                         IN THE GLOBAL ECONOMY

                               __________

                      JULY 15, 2011 (PORTLAND, OR)

                               __________

 Printed for the use of the Committee on Health, Education, Labor, and 
                                Pensions


      Available via the World Wide Web: http://www.gpo.gov/fdsys/

                         U.S. GOVERNMENT PRINTING OFFICE 

86-584 PDF                       WASHINGTON : 2014 

  For sale by the Superintendent of Documents, U.S. Government Printing 
   Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
        DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001 


          COMMITTEE ON HEALTH, EDUCATION, LABOR, AND PENSIONS

                       TOM HARKIN, Iowa, Chairman

BARBARA A. MIKULSKI, Maryland              MICHAEL B. ENZI, Wyoming
JEFF BINGAMAN, New Mexico                  LAMAR ALEXANDER, Tennessee
PATTY MURRAY, Washington                   RICHARD BURR, North Carolina
BERNARD SANDERS (I), Vermont               JOHNNY ISAKSON, Georgia
ROBERT P. CASEY, JR., Pennsylvania         RAND PAUL, Kentucky
KAY R. HAGAN, North Carolina               ORRIN G. HATCH, Utah
JEFF MERKLEY, Oregon                       JOHN McCAIN, Arizona
AL FRANKEN, Minnesota                      PAT ROBERTS, Kansas
MICHAEL F. BENNET, Colorado                LISA MURKOWSKI, Alaska
SHELDON WHITEHOUSE, Rhode Island           MARK KIRK, Illinois
RICHARD BLUMENTHAL, Connecticut
                                       

                      Daniel Smith, Staff Director

                  Pamela Smith, Deputy Staff Director 

     Frank Macchiarola, Republican Staff Director and Chief Counsel

                                  (ii)

  

                            C O N T E N T S

                               __________

                               STATEMENTS

                         FRIDAY, JULY 15, 2011

                                                                   Page

                            Committee Member

Merkley, Hon. Jeff, a U.S. Senator from the State of Oregon, 
  opening statement..............................................     1

                           Witnesses--Panel I

Grotting, Don, Superintendent, David Douglas School District, 
  Portland, OR...................................................     3
    Prepared statement...........................................     4
Cadez, Mary, Assistant Superintendent, Salem-Keizer School 
  District, North Bend, OR.......................................     5
    Prepared statement...........................................     7
Harms, Rachael, Teacher, Salem, OR...............................     9
Otterlee, Vanessa, Parent, Salem, OR.............................    12
    Prepared statement...........................................    12
Sipe, Heidi, Superintendent, Umatilla School District, Umatilla, 
  OR.............................................................    13
    Prepared statement...........................................    14
Hollensteiner, Beverly June, Superintendent, North Bend School 
  District, North Bend, OR.......................................    18
    Prepared statement...........................................    20
Angulo, Eduardo, Chairman and Executive Director, Salem/Keizer 
  Coalition for Equity, Salem, OR................................    23
    Prepared statement...........................................    24
Hopson, Tony, Executive Director, Self-Enhancement, Inc., 
  Portland, OR...................................................    26
    Prepared statement...........................................    28

                          Witnesses--Panel II

Koch, Roy, Ph.D., Provost and Vice President for Academic 
  Affairs, Portland State University, Portland, OR...............    30
    Prepared statement...........................................    32
Anderson, Morgan, Northwest Region Higher Education and 
  Government Affairs Manager, Intel, Hillsboro, OR...............    34
    Prepared statement...........................................    36
Knapp, Melinda, Mathematics Teacher, Bend, OR....................    38
Fuller, Nathan, Student, Senior, Cleveland High School, Portland, 
  OR.............................................................    41
    Prepared statement...........................................    42
Stueber, Nancy, President, Oregon Museum of Science and Industry, 
  Portland, OR...................................................    44
    Prepared statement...........................................    45
Unverzagt, Beth A., Director, Oregon After School for Kids, 
  Salem, OR......................................................    51
    Prepared statement...........................................    53

                                 (iii)

  


                   EDUCATING OUR CHILDREN TO SUCCEED 
                         IN THE GLOBAL ECONOMY

                              ----------                              


                         FRIDAY, JULY 15, 2011

                                       U.S. Senate,
       Committee on Health, Education, Labor, and Pensions,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10 a.m., at 
Gilbert Heights Elementary School, 12839 SE Holgate Boulevard, 
Portland, OR, Hon. Jeff Merkley presiding.
    Present: Senator Merkley.

                  Opening Statement of Senator Merkley

    Senator Merkley. Welcome, everyone. The committee will come 
to order.
    This is a field hearing of the Health, Education, Labor, 
and Pensions Committee, and I appreciate everyone coming to 
participate.
    I think we all understand that education is critical to the 
success of our children, and education is critical to the 
success of our future economy. And yet, as a Nation, we are 
struggling. We are becoming the first generation of adults 
whose children are getting less education than we got.
    We are becoming the first generation in which our children 
often do not get hands-on experience through shop classes, a 
generation in which we are losing in many schools our music 
classes, even our gym classes, things that aren't connected 
directly to No Child Left Behind testing. We have testing that 
perhaps has some elements that are valuable but has a lot of 
shortcomings.
    All of this is going to be part of the discussion over the 
reauthorization of the Elementary and Secondary Education Act. 
And the expertise that all of you bring from the front line is 
very, very helpful in going forward and trying to seize this 
moment of the reauthorization to have the best possible 
supportive framework in terms of national policy.
    So that is why we are holding this hearing. It is a hearing 
that comes in addition to conversations that I have been 
holding with educators throughout the State, as I proceed on my 
annual 36-county tour. And we very much expect right now for 
ESEA to be marked up later this year.
    Now, given the nature of the Senate, nothing is a sure bet. 
But we want to be prepared. Senator Wyden and I want to be as 
prepared as possible to be fully engaged in that conversation.
    I want to thank Superintendent Grotting and Principal 
Cherie-Anne May for hosting this hearing at Gilbert Heights 
Elementary School. This is the school that I came to when I was 
in elementary school to compete in sports--baseball outside, 
basketball inside. And it is good to be back.
    We have in Oregon a high unemployment rate. It is above the 
national average. Unemployment for those who have not gotten a 
high school degree and/or gone on to vocational school or a 
college degree is much higher than for those who have seized 
the various pathways in education.
    Our skills as a Nation, as they relate to skills in other 
countries around the world, are slipping. And we are now ranked 
14th out of 34 countries for reading skills, 17th for science, 
25th for mathematics. That is not a path for either the success 
of our children in a knowledge-based economy or the success of 
our future economy. So it is key.
    I am not going to elaborate on what is right and wrong 
about the current No Child Left Behind law because you all are 
the experts. And Susan and I are here to learn as much as 
possible from your expertise.
    I want to introduce Susan Lexer, who is my legislative 
assistant specializing in education. And also please note that 
as you work with my team on issues of education, feel free to 
call Susan at any time. Susan has her business cards, and her 
phone number is on our Web site. And so, seize that channel as 
you have input on how we can make things work better.
    I also want to introduce my Oregon State director, Jeanne 
Atkins, Jeanne, why don't you just step forward a little bit? 
Jeanne runs my Oregon State team. And feel free, if you are not 
certain about how to find the right person on my team for the 
issues that you are concerned about, to contact our office here 
in Portland. We have field offices around the State as well.
    We are going to be splitting this hearing into two major 
components. One is a panel on ESEA, Elementary and Secondary 
Education Act, and the second is on STEM issues. That is 
science, technology, engineering, and mathematics. And so, I am 
going to proceed to do very brief introductions of our 
witnesses. I am going to introduce both sides. Then we are 
going to split our time between the two topics.
    Starting with Don Grotting, superintendent of David Douglas 
School District. Then we have Mary Cadez, assistant 
superintendent of Salem-Keizer School District.
    Rachael Harms, a teacher from Salem, OR. Vanessa Otterlee, 
a parent. Heidi Sipe, superintendent of Umatilla School 
District. Beverly June Hollensteiner, superintendent of North 
Bend School District in North Bend, OR.
    Eduardo Angulo, chairman and executive director of Salem/
Keizer Coalition for Equality. Tony Hopson, executive director 
of Self-Enhancement, Inc. I greatly enjoyed the tour that he 
asked to come and see and the work that was being done on the 
ground there.
    On our STEM panel, we have Dr. Roy Koch, provost and vice 
president for academic affairs, Portland State University. Ms. 
Morgan Anderson from Intel. Melinda Knapp, mathematics teacher 
and recipient of the Presidential Award for Excellence in 
Mathematics and Science Teaching, from Bend, OR.
    Nathan Fuller, is a student. He will be a senior now at 
Cleveland High School, and he is a participant in the FIRST 
Robotics team. And I had a chance to come and see their team in 
action, the Pigmice.
    [Laughter.]
    He will have his own story, I am sure, about how it became 
the Pigmice.
    Nancy Stueber, president of Oregon Museum of Science and 
Industry. And Beth Unverzagt, director of the Oregon After 
School for Kids program.
    The committee has received your full written testimony for 
the record, and we will have 5 minutes for each person to 
summarize the key points that you wish to contribute. This 
being an official hearing, we have the official timing device. 
And basically, when the red light comes on, time is up.
    The yellow comes on with a minute to go, so that will give 
you a sense to wrap up.
    The record will remain open for 10 days for submission of 
additional statements, and I will remind people of that at the 
end as well.
    With that, we are going to jump right in. We do have enough 
time for everyone to have the full 5 minutes, and I may 
interject a few questions or thoughts along the way.
    Don, would you like to kick it off?

STATEMENT OF DON GROTTING, SUPERINTENDENT, DAVID DOUGLAS SCHOOL 
                     DISTRICT, PORTLAND, OR

    Mr. Grotting. Yes, first of all, thank you, Senator, for 
coming back to the school district where you were educated, but 
also where his children continue to be educated. So we really 
appreciate you coming home.
    No Child Left Behind has been responsible for public 
education recognizing and acknowledging the achievement gap 
that exists for children of poverty, color, children having 
learning disabilities, and identified as English language 
learners. It has caused educational facilities and educators to 
identify the challenges that exist among these groups and as 
also responsible for starting to close the achievement gap.
    I truly believe without No Child Left Behind legislation 
that we would not be where we are today. It has provided a 
sense of accountability.
    Having said that, I also believe that No Child Left Behind 
has failed through the measurement of adequate yearly progress 
to recognize the individual challenges of various learning 
environments, institutions, and students. A school and a 
student are deemed to succeed or fail based on a specific 
measurement. There is minimal consideration for individual 
student or institutional growth.
    In addition, the legislation does not adequately address 
the challenges or differences that exist among our students 
with disabilities or English language learners. All students 
simply have to jump over the same bar at the same height, even 
though it may not be physically or mentally possible.
    Having attainable and rigorous standards and accountability 
measures that address each child is imperative. Each child has 
an unlimited capacity to learn. The key variable is determining 
their starting point and then measuring and providing growth 
milestones for each child.
    While we are setting the bar too high for some students, I 
would also maintain we have not set the bar high enough for 
other students, and they are not being challenged to reach 
their potential. In addition, we must have goals that can be 
realistically achieved and maintained.
    In 2014, every child, every institution will not achieve 
AYP under the current accountability and measurement standards. 
We must have rigorous goals that can be achieved.
    Finally, accountability needs to be embedded within each 
institution. Best practices, proficient teaching, professional 
development, outstanding educational leadership should become 
the expectation, not the exception. When institutions and 
educators are provided adequate resources but continue to fail 
students, consequences and interventions need to be 
implemented. Time is of the essence for every child to be 
educated.
    On a final note, I truly maintain that we must address our 
birth to kindergarten population before any significant and 
sustained improvement will be realized in the K-12 system. We 
continue to react to a widening achievement gap, rather than 
addressing the source of the problem.
    Having every student kindergarten ready, as well as having 
full-day kindergarten for every child, will truly decrease the 
possibility of a child being left behind.
    I want to thank you for your time and consideration in 
trying to make a positive difference in the lives of all 
children in the United States.
    [The prepared statement of Mr. Grotting follows:]
                   Prepared Statement of Don Grotting
    NCLB has been responsible for public education recognizing and 
acknowledging the achievement gap that exists for children of poverty, 
color, children having learning disabilities, and identified as English 
Language Learners. It has caused educational facilities to identify and 
recognize equity, cultural, and other differences and challenges that 
are responsible for impacting and widening the achievement gap.
    NCLB has failed through the measurement of Adequate Yearly Progress 
to recognize the individual challenges of various learning 
environments, institutions, and students. A school and a student are 
deemed to succeed or fail based on a specific measurement. There is 
minimal consideration for individual student or institution growth. In 
addition, the legislation does not adequately address the challenges or 
differences that exist among our students with disabilities or English 
Language Learners. All students simply have to jump over the same bar 
at the same height even though it may not be physically or mentally 
possible. Having attainable and rigorous standards and accountability 
measures that address each child is imperative.
    Every child has an unlimited capacity to learn. The key variable is 
determining their starting point and then measuring and providing 
growth milestones for each child. While we are setting the bar too high 
for some students, I would also maintain we have not set the bar high 
enough for other students, and they are not being challenged to reach 
their potential. In addition, we must have goals that can be 
realistically achieved and maintained. In 2014, every child and every 
institution will not achieve AYP under the current accountability and 
measurement standards. We must have rigorous goals that can be 
achieved.
    Finally, accountability needs to be imbedded within each 
institution. Best practices, proficient teaching, and outstanding 
educational leadership should become the expectation, not the 
exception. When institutions and educators are provided adequate 
resources, but continue to fail students, consequences and 
interventions need to be implemented. Time is of the essence for every 
child being educated. On a final note, I truly maintain that we must 
address our birth to kindergarten population before any significant and 
sustained improvement will be realized in our K-12 system. We continue 
to react to the widening achievement gap rather than addressing the 
source of the problem. Having every student kindergarten-ready, as well 
as having full-day kindergarten for every child, will truly decrease 
the possibility of a child being left behind.
    Thank you for your time and consideration and for your efforts in 
making a positive difference in the lives of our children.

    Senator Merkley. Thank you.
    And if I turn the clock back a few years ago, we had a big 
push to try to create enough resources so that all parents, who 
were eligible to have their children in Head Start--to help get 
ready for school--were able to do so. Did we see any 
significant impact from that?
    Mr. Grotting. Yes. We have data that is showing if we can 
impact students, 3- and 4-year-old students, to be kindergarten 
ready, the more of those students that have that availability, 
we are making gains.
    For every student that comes to first grade unable to read, 
we are failing seven of them. Those are the kids that are 
dropping out of our schools. We simply do not have--well, we 
don't have enough resources. But also even with the resources 
that we have, it is not making the difference that it should 
make.
    So a child's brain is 90 percent developed by the age of 5. 
And so, all of that information up to entering school, it is 
just imperative that they have the background knowledge, the 
skills, and the education necessary. Otherwise, they are going 
to continue to be left behind.
    Senator Merkley. Thank you.
    Ms. Cadez.

STATEMENT OF MARY CADEZ, ASSISTANT SUPERINTENDENT, SALEM-KEIZER 
                SCHOOL DISTRICT, NORTH BEND, OR

    Ms. Cadez. Senator Merkley, it is an honor to be invited 
here today to present our views to you and your team on the 
reauthorization of ESEA. And thank you for the opportunity.
    In considering the reauthorization of the ESEA, we would 
offer the following from Salem-Keizer Public Schools. College- 
and work-ready is our primary goal for our 40,000-plus students 
in the Salem-Keizer district. We want our students prepared for 
the rigor of the postsecondary college or university experience 
or to have them possess the skills--academic, technology, and 
relational--to enter the workforce in a living-wage job.
    We know that quality teaching is at the epicenter of our 
success and the means of achieving our goal with our students. 
In Salem-Keizer, we do know what it takes to recruit, retain, 
and support a high-quality and vibrant teaching team, and our 
student results in the past 5 years demonstrate that our plan 
is working.
    Given that information, it is our hope that the 
reauthorized ESEA will support our efforts and help us by 
providing the resources for the following. Professional 
development for our teams that is relevant and part of the day-
to-day school process so that the application of new strategies 
and programs are embedded in the classroom where they are 
needed, and there are supportive instructional coaches or peers 
to help sustain those new programs and strategies.
    Continuation of a mentor program to support teachers within 
their first 2 years in the classroom, especially those in our 
high-need schools, so that we can provide them with monthly 
network seminars that help them problem solve and build a 
professional cohort that they can call on when needed.
    The expansion of this program to a third year would 
strengthen what we are currently doing. In addition, re-
induction and intensive work with struggling teachers is also a 
priority for Salem-Keizer.
    Time for teachers to work in professional learning 
communities so that they can problem solve and plan 
interventions together for students who are not being 
successful or showing the growth that they desire. We know this 
works when our teachers can collaborate.
    A renewed, meaningful, and relevant performance evaluation 
system for teachers, administrators, and other members of our 
educational team, one that is current, validated, and reliable 
in providing information on performance and growth, aligned to 
the goals and objectives of our district's strategic plan.
    We are currently engaged in this work with the CLASS 
Project with Chalkboard with funding from the Teacher 
Innovation Fund grant. We are hoping to link this to a 
performance-based, incentive pay system this coming year for 
our teachers. One of our major concerns for us is the 
sustainability of this type of work.
    We also are hoping for provision of extended day programs 
for our students such as our second language learners and 
students from poverty who need more opportunity and time to be 
successful. Saturday school and summer academy programs have 
provided rich opportunities for our students who need extra 
time for doing deeper training with our teachers. Last summer 
alone, 400 teachers received additional training in literacy in 
math and science in our summer academy programs.
    Also providing increased resources for technology so that 
we can stay current in our efforts to have our students become 
comfortable with and successful users of technology. Common 
professional standards and licensing requirements from State to 
State so that teachers can be more mobile, and we can access 
the staffing resources we need to be successful.
    We would also encourage higher standards for supplemental 
education service providers, if they are continued to be used 
as part of the NCLB requirements.
    As my colleague has already said, we need funding for all-
day kindergarten programs and pre-K programs so that all 
children have the opportunity to be ready for school. 
Currently, we have tuition-based, parent-funded all-day 
kindergartens in two of our schools, and we have two other 
schools, one with funding from a private donor and one with 
funding from a grant. However, that often leaves out our 
neediest students in the schools that do not have these options 
available.
    Focus on additional funding to level the playing field for 
our lowest performing schools. Making these options available 
through competitive grants often directs the focus of the team 
to grant writing and management rather than the planning and 
execution of the work.
    We would like to encourage elimination of the school choice 
provision. It is not used as much as it was anticipated to be 
used. It is often not used for academic opportunity, but for 
sports and extracurricular activity under the guise of 
academics.
    Elimination of or at least reduction of the high-stakes 
multiple choice testing requirement. It does little to inform 
instruction, consumes a lot of instructional time and a hefty 
amount of our financial resources. We want to be accountable. 
We would like to see this type of testing replaced with 
performance-based and authentic assessment and use multiple 
measures to get a more balanced picture of student growth.
    Thank you.
    [The prepared statement of Ms. Cadez follows:]
                    Prepared Statement of Mary Cadez
    Senator Merkley, it is an honor to be invited here today to present 
our views to you and your team on the reauthorization of the ESEA. 
Thank you for the opportunity.
    In considering the reauthorization of the ESEA we would offer the 
following from Salem-Keizer Public Schools:

    College and work-ready is our primary goal for our 40,000 + 
students in Salem-Keizer District. We want our students prepared for 
the rigor of postsecondary college or university experience or to have 
them possess the skills (academic, technology, and relational) to enter 
the workforce in a living wage job.
    We know that quality teaching is the epicenter of our success with 
our students and the means of achieving our goal with our students. In 
Salem-Keizer we know what it takes to recruit, retain and support a 
high quality and vibrant teaching team. Our student results in the past 
5 years demonstrate that our plan is working.
    It is our hope that the reauthorized ESEA will support our efforts 
and help us by providing the resources for:

    <bullet> Professional development for our teams that is relevant 
and a part of the day-to-day school process so that the application of 
new strategies and programs are embedded in the classroom where they 
are needed and there is the support of instructional coaches (peers) to 
help sustain those new programs and strategies.
    <bullet> Continuation of a mentor program to support teachers 
within their first 2 years in the classroom (especially those in our 
high-need schools) and provide them with monthly network seminars that 
help them problem solve and build a professional cohort that they can 
call on when needed. The expansion of this program to a third year 
would strengthen what we are currently doing. In addition re-induction 
and intensive work with struggling teachers is also a priority.
    <bullet> Time for teachers to work in professional learning 
communities so that they can problem solve and plan interventions 
together for students who are not being successful or showing the 
growth that we desire. We know this works when teachers can 
collaborate.
    <bullet> A renewed meaningful and relevant performance evaluation 
system for teachers, administrators and other members of our 
educational team. One that is current, validated and reliable in 
providing information on performance and growth aligned to the goals 
and objectives of our district strategic plan. We are currently engaged 
in this work with the CLASS Project with Chalkboard with funding from 
the Teacher Innovation Fund Grant. We are hoping to link this to a 
performance-based incentive pay system. One major concern is the 
sustainability of this work.
    <bullet> Extended day programs for our students such as second 
language learners and students from poverty who need more opportunity 
and time to be successful. Saturday school and summer academy programs 
provide rich opportunities for our students who need extra time and for 
doing deeper training with our teachers. Last year alone 400 teachers 
received additional training in our summer academy programs.
    <bullet> Increased resources for technology so that we can stay 
current in our efforts to have our students become comfortable with and 
successful users of technology.
    <bullet> Common professional standards and licensing requirements 
from State to State so that teachers can be more mobile and we can 
access the staffing resources we need to be successful.
    <bullet> Higher standards for Supplemental Education Service 
Providers if they are to continue to be used.
    <bullet> Funding for all day kindergarten programs and pre-K 
programs so that all children have the opportunity to be ready for 
school. Currently we have tuition-based parent-funded opportunities 
that often leave out our neediest students.
    <bullet> Focus on additional funding to level the playing field for 
our lowest performing schools. Making these options available through 
competitive grants often directs the focus of the team to grant writing 
and management rather than the planning and execution of the ``work.'' 
Frequently the timeline requirements of the grants are too short and do 
not allow us to produce quality products and validated long-term 
results.
    <bullet> Elimination of the school choice provision. It is not used 
as much as it was anticipated to be used and is often used not for 
academic opportunity but for sports and extra curricular under the 
guise of academics. It is in fact at times causing a ``resegregation'' 
of our schools.
    <bullet> Elimination of or at least reduction of the high stakes 
multiple choice testing requirement. It does little to inform 
instruction and consumes too much instructional time and a hefty amount 
of financial resources. We want to be accountable. Replace this type of 
testing with performance-based and authentic assessment along with 
multiple measures that provide a more balanced picture of student 
growth. The current assessment system focuses the school's energy on 
math and reading often to the exclusion of other content areas that are 
not tested in this format such as: writing, science, social studies, 
art and foreign language, not to mention PE and Music.
    <bullet> Elimination of the requirement for the portion of the 
title I funds that are based on levels of per pupil spending by the 
State. This only reinforces the wealth-based inequalities that already 
exist between districts.
    <bullet> A couple other measures built into the current Act do not 
serve us well in communicating clear results to the public on our 
schools and should be eliminated: the designation of persistently 
dangerous schools (the rules are different-depending on the State and/
or the district) and thus any meaning that might be gained is lost; and 
attendance is too big a factor in a school's performance report card 
and there is no accountability for parents.

    A closer return to the original purpose of the Act would be our 
preference where the conditions of the Act respond to the neediest of 
our students who need access to opportunity. Again thank you for this 
opportunity to share our ideas.

    Senator Merkley. Thank you. Thank you very much.
    And let me ask you a couple followup points there.
    Ms. Cadez. Certainly.
    Senator Merkley. First, you mentioned that you are putting 
a lot of emphasis both into college preparation, but also into 
workforce preparation. Have you been able to sustain in this 
budget environment the shop classes, other classes that are 
part of that workforce preparation for kids who are choosing a 
different track than a college track?
    Ms. Cadez. No. We have had to reduce the number of career 
tech programs in the district fairly significantly. Although we 
are still providing the same range of programs, it is also 
causing students to have to use interdistrict transfer to move 
to a different high school to access those programs.
    Senator Merkley. Then I want to emphasize the point that 
you made about grant writing, that the funds being shifted 
from, if you will, formula grants into competitive grants means 
that now the school district has to become expert grant 
writers. And school districts don't have necessarily the 
resources and times to be immersed in that world.
    Do you think there is some amount of competitive grants 
that make sense in terms of driving pilot programs and 
experimentation?
    Ms. Cadez. Absolutely. I think innovation and 
experimentation are critical, and I think that some grant 
writing is fine. But I get a little concerned when we are 
moving and what I am hearing is there may be more moved to 
competitive. And we get into a situation there where we are 
spending an inordinate amount of time doing grant writing and 
grant management.
    Senator Merkley. And then you mentioned the school choice 
issue, and this is part of the punitive structure of a school 
being labeled unsuccessful, if you will. And do you have a 
story on how that has affected a school in your school 
district?
    Ms. Cadez. I don't have a specific story, but I can tell 
you that currently about 400 students exercise the school 
choice option. And what is happening there is it is mostly for 
sports or for some of the enrichment programs that they want to 
access at another school. It is taking the best and brightest 
students out of some of our lower performing schools.
    McKay High School would be an example of that in Salem-
Keizer. And McKay High School is currently a SIG grant 
recipient and undergoing a transformation, and they have had 
some incredible results this year under that opportunity.
    Senator Merkley. Thank you very much.
    Ms. Cadez. You are very welcome.
    Senator Merkley. Next we have Rachael Harms.

         STATEMENT OF RACHAEL HARMS, TEACHER, SALEM, OR

    Ms. Harms. Senator Merkley, thank you for the opportunity 
to share our experiences with you and your team. It is an honor 
to be here today.
    Each day in Salem-Keizer Public Schools' 40,000 bright 
young people come through the doors, depending on us to prepare 
them to enter the workforce or to be college-ready by the time 
they graduate from high school. We have made tremendous growth 
doing that.
    We know that having an effective teacher is the most 
important thing in each of our students' lives and the single 
most important factor in increasing student achievement. In a 
paper published by Eric Hanushek last month, he stated,

          ``The key element defining a school's impact on 
        student achievement is teacher quality. Replacing or 
        increasing the effectiveness of the bottom 5 to 8 
        percent of teachers in the United States could move the 
        United States near the top of international math and 
        science rankings. Professional development matters.''

    Although 98.9 percent of our teaching staff is highly 
qualified, we are striving for 100 percent. We look closely at 
teacher performance and offer support to those teachers who 
require additional opportunities for growth and development in 
order to provide the high-quality teaching that our students 
deserve.
    Our Office of Staff Quality works alongside teachers who 
need this additional support. Although the costs associated 
with this intensive intervention for teachers can be high, the 
cost of allowing marginal teaching is even higher.
    We place highly qualified teachers in our high-need 
schools, but every student needs and deserves the very best 
teacher we can provide. We must be sure our teachers are 
getting the professional development they need in order to meet 
our students' needs.
    We endeavor to provide high-quality, job-embedded 
professional development that includes coaching and followup. 
This deepens the content knowledge of each teacher, providing 
them with the research-based instructional strategies to assist 
students in meeting rigorous academic standards and prepares 
teachers to use various types of formative assessments 
appropriately.
    With coaching, we know that what they are learning and 
practicing is more likely to be consistently applied in the 
classroom. Coaches also facilitate learning labs, professional 
learning communities, and data study teams as they study and 
reflect on the progress of each student.
    In the past year, our district has endured over $58 million 
in cuts from our general budget. We have maintained our core 
value of increased student achievement as our highest priority 
and have, therefore, preserved our instructional coaching 
program, knowing that this is one of the best things we can do 
to support teachers. We have made huge gains in the last 
several years, and we don't want to jeopardize the momentum 
that we have.
    Without title I and title II-A funding, this valuable 
program would be lost. In the words of our superintendent, Dr. 
Sandy Husk, ``When times get tough, we don't take away the very 
thing that helps us do our jobs better.'' Again, professional 
development matters.
    During the 2010-11 school year in Salem-Keizer schools, 
1,413 paraprofessionals and 1,835 licensed teachers took part 
in at least one professional development opportunity. But many 
of these 3,248 educational professionals were involved in 
multiple and ongoing training in addition to working with their 
instructional coach. This powerful approach to professional 
development is showing results, as evidenced by our increased 
student achievement and supported by our teacher surveys and 
professional development evaluation feedback forms.
    We make every effort to ensure that our teachers have 
equitable technology available in their classrooms and they 
know how to tap the potential of each tool. Technology should 
enhance student learning and make teaching easier and more 
enjoyable. It is an amplifier. It makes good teachers better.
    With the proper professional development, teachers can 
realize the potential of the technology available to them and 
maximize its effectiveness. Without the professional 
development, technology is either underutilized, or fear of 
failure keeps teachers from using it at all.
    Educational technology--tools such as document cameras, 
SMART Boards, MP3 players, Web-based instructional software--in 
conjunction with sustained, ongoing job-embedded development 
has proven very successful in our district. In the last 2 
years, we have been the recipient of two title II-D competitive 
grants and will begin a final title II-D competitive grant in 
the fall. We have seen increased student achievement, better 
attendance, lower discipline incidents, increased homework 
completion, and a host of other indicators that show that when 
these tools are placed in the hands of excellent teachers, both 
teachers and students benefit more from education in the 
classrooms than without these tools.
    Our teacher retention rate for teachers in their first 2 
years in the profession has moved from 59 percent to 89 
percent. And this year, we had no losses of first- or second-
year teachers, except for those lost due to our reduction of 
force.
    This growth and retention of new teachers is due largely to 
our mentor program, which consists of teacher induction, 
ongoing supportive mentors with a minimum of 90 hours per new 
teacher, observation and feedback, learning labs, a targeted 
focus on professional teaching standards and professional 
growth, and intentional and intensive analysis of teacher 
practice and moving that practice forward. Without this 
intensive support to our new teachers, we would continue to 
lose half of our new hires and the investments we have made in 
each of them.
    Additionally, we are taking another look at how we approach 
our teacher performance evaluation system and are engaged in 
meaningful collaboration with the CLASS Project and our Teacher 
Innovation Fund schools to link multiple measures of student 
growth to a performance-based incentive pay system.
    All these initiatives are proven to be effective, but 
require adequate funding, which we can't support through 
general dollars alone. It is my hope that as you consider the 
reauthorization of ESEA, you will provide adequate and stable 
funding for this important work to continue.
    Senator Merkley. Thank you very much.
    You used, in your opening comments, both the term ``highly 
qualified,'' which is in the current No Child Left Behind 
legislation, and the notion that an effective teacher is the 
biggest factor. A lot of the conversation in reauthorization is 
that maybe the emphasis on qualified is not as important as an 
emphasis on effective.
    Many of the things you have been talking about sound to me 
like they are about effectiveness, not just qualified in terms 
of program completed and so forth. But do you want to elaborate 
very briefly on that conversation?
    Ms. Harms. Sure. I think it is very possible and has 
happened where we can have a teacher who is deemed highly 
qualified, but isn't necessarily effective. And by using 
professional teaching standards, such as the InTASC standards, 
where we can show growth along a continuum, much like we expect 
of our students, through coaching, we are able to produce very 
effective teachers who can say here is the target that I am 
aiming toward, and here is the growth that I am making as a 
teaching professional.
    Senator Merkley. But it sounded to me that much of what has 
gone on is trying to break down the silo in which teachers 
often find themselves. Especially in those early years, you are 
alone in the classroom. But now you are really emphasizing 
mentoring programs and other strategies that make a teacher 
less of an isolated entity? Is that the correct sense of it?
    Ms. Harms. Yes. We are focusing very heavy on intentional 
collaboration, not just random groups getting together. But 
very focused work together as a professional learning community 
to increase effectiveness as teachers.
    Senator Merkley. In your elementary schools, do the 
teachers talk about each student each week with each other?
    Ms. Harms. Yes.
    Senator Merkley. Yes, they do?
    Ms. Harms. We have data study teams, and they do. They take 
the responsibility of every student, not just the ones in their 
classroom.
    Senator Merkley. OK. Let us turn to Vanessa Otterlee, a 
parent. Welcome.

        STATEMENT OF VANESSA OTTERLEE, PARENT, SALEM, OR

    Ms. Otterlee. Thank you for having me.
    As a parent, I feel too much time and effort and financial 
resources are put into multiple choice testing for NCLB. Some 
of the resources used for testing should be used to provide 
support to teachers and time for them to plan together.
    Extended day programs at our schools benefit the neediest 
students and provide them with opportunities that they might 
not otherwise experience. Full-day kindergarten programs are 
available through parent tuition-based programs at some of our 
schools. However, the full-day kindergarten experience should 
be available to all students in the district.
    School choice options under NCLB don't appear to do much 
for students or for schools, as some of the best and brightest 
students are leaving their neighborhood school for reasons that 
are not related to the academic offerings at the school and 
improvement, such as sports and music programs.
    The SIG grant, the School Improvement Grant, and their 
turnaround efforts at our McKay High School have produced some 
super student achievement results this year. However, I don't 
feel it is reasonable to think that a school can be fully 
transformed within 3 years. More time is needed.
    I have witnessed firsthand the benefits of providing 
training to the instructional assistants in the district and 
having those serving in the title I schools be highly 
qualified, and I believe that this has had considerable benefit 
for our students. I have strong feelings that we should require 
that level of training for instructional assistants in all of 
our schools.
    Thank you.
    [The prepared statement of Ms. Otterlee follows:]
                 Prepared Statement of Vanessa Otterlee
    As a parent, I feel too much time and effort and financial 
resources are put into multiple choice testing. Some of the resources 
used for testing should be used to provide support to teachers and time 
for them to plan together.
    Extended day programs at our schools benefit the neediest students 
and provide them with opportunities that they might not otherwise 
experience. Full-day kindergarten programs are available through parent 
tuition-based programs at some of our schools, however the full-day 
kindergarten experience should be available to all students in the 
district.
    School choice options don't appear to do much for students or for 
schools as some of the best and brightest students are leaving their 
neighborhood school for reasons that are not related to the academic 
offerings at the school such as sports and music programs.
    The SIG grant and the turnaround efforts at our McKay High School 
have produced some super student achievement results this year. 
However, I don't feel it is reasonable to think that a school can be 
fully transformed within 3 years. More time is needed.
    I have witnessed firsthand the benefits of providing training to 
the instructional assistants in the district and having those serving 
in the title I schools be ``highly qualified'' and I believe that this 
has had considerable benefit for our students.
    The benefit of the funding for the district received through ESEA 
is to provide opportunity for all students--even our most needy.

    Senator Merkley. Thank you very much.
    When you talked about too much time on testing, have you 
seen this through the lens as a parent through your children, 
or as a parent involved in the school, holding conversations?
    Is it the type of test, or is it the time on the tests? Do 
you have anything you want to add on that?
    Ms. Otterlee. I hear it mostly from my own students, but 
also other parents that it seems that we are just testing them 
to death. That they are taking the focus off of everything 
else.
    Senator Merkley. OK. Thank you.
    Ms. Otterlee. Thank you.
    Senator Merkley. Thank you.
    And next, we have Heidi Sipe, superintendent of Umatilla 
School District.
    Heidi, welcome.

STATEMENT OF HEIDI SIPE, Ed.S., SUPERINTENDENT, UMATILLA SCHOOL 
                     DISTRICT, UMATILLA, OR

    Ms. Sipe. Thank you for the opportunity to share my 
experience with the No Child Left Behind Act.
    Clara Brownell Middle School has emerged as a strong 
example of the challenges of NCLB mandates. CBMS is a minority-
majority school with 91 percent of students qualifying for free 
or reduced lunch. CBMS made AYP in 2007 and 2008. In 2008-9, it 
was approximately four English language learners shy in the 
target for language arts. Thus, the entire school did not make 
AYP, despite exceeding the targets in all other subgroups for 
both language arts and mathematics.
    In 2009-10, CBMS made AYP and again exceeded the targets in 
all subgroups. Despite this success, Clara Brownell continues 
to be labeled a school in need of improvement because it has 
not made AYP for two consecutive years. The failing label is 
damaging to staff, students, and community morale.
    Even more damaging than the label are the sanctions, such 
as the requirement to offer supplemental education services, or 
SES. As a district with schools in need of improvement, we must 
set aside 20 percent of our title I allocation to offer SES. To 
do so, we were forced to reduce two teachers from our school 
system.
    I believe reauthorization should eliminate SES due to the 
following experiences. I will use examples based on this school 
year with two of the most commonly selected SES companies.
    School districts are required by NCLB to provide 
instruction via highly qualified, certified teachers. SES 
companies have no minimum requirements. Neither company I will 
discuss requires their tutors to be certified teachers, nor 
possess a college degree of any type. Both companies use school 
district facilities to provide their services. We do charge $25 
per day for this.
    Both offer incentives to students. This year, our students 
were offered iPods, Wiis, and Xboxes. Districts are not allowed 
to control the materials, assessments, nor instructional 
strategies of SES providers. A sampling from one company in the 
month of February provides the following information.
    A tutor, who is not a certified teacher, worked with a 
first, third, and fourth grader together for 1 hour. A report 
of student progress for the day states, ``Went over program and 
split into groups, discussed what they expect of tutoring.'' 
Our district was required to pay $165 for that hour of service.
    This provider shares monthly progress reports. The 
following comments, all from tutors with no formal education 
training, were reported. S.R., third grade,

          ``She took the math test and scored a first grade 
        level, but I believe she works at a third grade level. 
        We worked on a few basic second grade worksheets, which 
        she aced. So we moved on to third grade basic addition 
        and subtraction.''

    V.B., first grade, ``We also worked on some second and 
third grade vocab, word searches, crossword puzzles, and word 
scrambles.''
    The district was charged $55 per hour by this company for a 
first grade student to complete second and third grade word 
searches and crossword puzzles, neither of which have academic 
value.
    The next company charges $65 per hour per student. On May 
3, 2011, this company provided 1.5 hours of instruction to 15 
students during a 2.5-hour period of time. Students ranged in 
age from kindergarten through the seventh grade. Though the 
reports only show one tutor's name, we were told there would be 
a ratio of five students to one tutor. So I must trust that 
there were three tutors present.
    For this 2.5 hours of tutoring time, the school district 
was forced to pay $1,462.50, for 2.5 hours. Bill charges for 
the month of May totaled $14,602.15 for 15 students. The 
average cost to the district for a 2.5-hour day for the month 
of May was $1,040.
    This company advertises tutor pay between $16 and $30 per 
hour per tutor. Assuming $30 with an additional 30 percent for 
payroll costs and three tutors per day, payroll for the tutors 
for the month would be $4,3087. Building use fees for the month 
would be $375. That leaves this company with $10,840 for the 
month for curriculum, overhead, incentives, and profit.
    Situations such as this are being replicated across the 
Nation. Is this a good use of our Federal funds?
    Our afterschool program can provide 168 hours of 
instruction to students per year with a certified instructor, 
same ratio, 10 to 1. To staff this service would cost us $3,663 
for the year.
    At $65 per student per hour for staffing, this program 
would cost us $109,200 for 10 students, not $3,600. What is the 
$105,000 difference? Profits. And I apologize.
    [The prepared statement of Ms. Sipe follows:]
               Prepared Statement of Heidi A. Sipe, Ed.S.
    I transitioned from teaching to educational administration in 2002 
with the charge of implementing the mandates of No Child Left Behind 
throughout our school district. The Umatilla School District is a rural 
district on the banks of the Columbia River in the northeastern corner 
of Oregon. Umatilla schools serve the poorest student population in 
Oregon with 84.62 percent of the K-12 student body qualifying for free/
reduced lunch. The majority of students in Umatilla are Hispanic and 
many are English Language Learners. When the first AYP reports were 
released, schools within Umatilla district boundaries produced less 
than satisfactory results. Since 2002, Umatilla educators have 
implemented focused, data-driven, school improvement teams to improve 
instruction for students. Improvement efforts have resulted in strong 
student growth at all levels as reflected on AYP reports.
    While all Umatilla schools have shown marked improvement, Clara 
Brownell Middle School (CBMS) has emerged as a strong example of the 
strengths and challenges, of the No Child Left Behind mandates. Clara 
Brownell Middle school serves 316 high poverty (91.22 percent of 
students qualify for free/reduced lunch) students in sixth, seventh and 
eighth grades. As one can see in the following charts, Clara Brownell 
Middle School was once a school with less than acceptable student 
performance, however, due to focused improvement efforts, CBMS has 
become a school with strong student performance in all student 
subgroups.

                  Historical Performance of Clara Brownell Students as Reflected on AYP Reports
----------------------------------------------------------------------------------------------------------------
                                       2004-5       2005-6       2006-7       2007-8       2008-9      2009-10
----------------------------------------------------------------------------------------------------------------
English/Language Arts:
  All Students....................        42.37        45.43        73.55        71.75        72.31        73.13
  Economically Disadvantaged......        36.97        37.79        68.35        66.86        68.34        69.24
  Limited English Proficient......        28.55        29.64        55.02        52.29        57.14        61.58
  Students with Disabilities......        31.23        28.95        38.87        64.15        67.52        61.57
  Hispanic origin.................        31.76        34.10        63.60        62.95        66.12        67.93
  White...........................        60.36        63.92        91.71        90.93        89.24        89.16
Math:
  All Students....................        56.94        67.22        73.42        75.98        79.94        82.19
  Economically Disadvantaged......        51.38        60.90        68.68         71.5         76.8        79.44
  Limited English Proficient......        39.59        50.27        56.17        62.07        64.73        70.36
  Students with Disabilities......          n/a          n/a        41.79        57.18        64.15        64.43
  Hispanic origin.................        42.79        54.54        64.12        67.33        74.81        78.34
  White...........................        78.95        87.68        90.81        94.74        95.13        96.06
----------------------------------------------------------------------------------------------------------------
Note: In 2004-5, 2005-6 and 2006-7, the AYP targets were 49 percent in mathematics and 50 percent in English/
  language arts. In 2007-8, 2008-9 and 2009-10, the AYP targets were 59 percent in mathematics and 60 percent in
  English/language arts. Text in boldface indicates a failure to make AYP in the specified subgroup, text in
  lightface indicates making AYP in the specified subgroup.

    In 2004, the school began a collaborative restructuring process. 
Teacher leaders and school administration worked together to identify 
student needs (based on assessment data) and develop strategies to meet 
student needs. Focused staff development was provided to all staff 
members and monitored by instructional coaches and peer feedback was 
provided during walk-through visits. In addition to specialized 
coursework during the day, after-school programs and summer school 
options were developed for students. School culture issues were 
addressed in coordination with associated student body leaders to 
encourage the school to become focused on learning and celebrations of 
academic success. When this work began, involved parties were told to 
be patient and stay focused as it would take at least 2 years for the 
results of the work to reflect on State assessment results. In the 
2006-7 school year, the school reflected in the results of the 
improvement efforts when English Language Arts student performance 
jumped from 42.37 percent in 2004-5 to 73.55 percent in 2006-7.
    Despite increasing AYP targets, in 2007-8 and 2009-10, CBMS made 
AYP and in 2008-9, the school was approximately four Limited English 
Proficient students shy of meeting AYP. Despite the success of Clara 
Brownell students, CBMS is classified as a school in year 4 of School 
Improvement under NCLB mandates and thus, must abide by various 
sanctions such as Supplemental Education Services and restructuring.
    Though the district offers a strong after-school program for 
students, the Umatilla School District must set aside 20 percent of its 
title IA allocation to offer Supplemental Education Services to 
students of poverty of schools in improvement sanctions. The chart 
below compares the after-school program offered to Clara Brownell 
Middle School students by the district and Advantage Point Learning's 
Supplemental Education Services. It is important to note that 
Supplemental Education Service providers are not required to instruct 
students toward State assessments and can instead set goals based on 
their own assessments which are often not aligned to the goals/
standards of the school. In one recent example during the 2010-11 
school year, a 6th grade student was working on place value (ones, 
tens, hundreds) in his supplemental service time despite having 
mastered this skill in the first grade according to multiple school 
assessments. Many Supplemental Service providers recruit students with 
promises of expensive prizes. In the 2010-11 school year, various SES 
providers advertised Wiis, Playstations and iPods to students when 
recruiting. The services provided by Supplemental Service providers are 
expensive and divert funding from classrooms toward private companies 
with varied results for students.


------------------------------------------------------------------------
                                    Umatilla School
                                    District After-     Advantage Point
                                    School Tutoring           SES
------------------------------------------------------------------------
Qualifications of Tutors........  Oregon State        No minimum
                                   Certified           certification
                                   Teachers.           requirements
                                                       (http://
                                                       www.advantagepoin
                                                       t.org/
                                                       Page.asp?NavID=26
                                                       )
Cost to District/Hour...........  $21.62              $65.00/student/
                                   (salary+payroll     hour
                                   benefits)/hour.    Advertised wage
                                  Wage per hour/       per tutor/hour:
                                   teacher: $16.63.    Between $19 and
                                                       $30/hour (http://
                                                       www.advantagepoin
                                                       t.org/Page
                                                       .asp?NavID=26)
Cost to District/Hour for 10      $21.62............  $650.00
 Students.
Total Instructional Hours         Approximately 168.  Approximately 22
 Offered Per Student Each Year.
Staffing Cost to District Per     $3,632.16 (168      $14,300 (22 hours
 Year for 10 Students.             hours of            of instruction/
                                   instruction/        student for small
                                   student for small   group of 10
                                   group of 10         students by
                                   students by         tutor)
                                   certified
                                   teacher).
Meals...........................  Full supper is      Not offered.
                                   offered to all
                                   participating
                                   students.
Transportation..................  Busing is provided  Not offered.
                                   for all
                                   participating
                                   students
                                   (District paid).
Incentives......................  Not offered.......  iPod Shuffle, iPod
                                                       Nano, iPod Touch,
                                                       Visa Gift Cards
Program Availability............  First week of       Dependent upon
                                   October through     student schedule.
                                   first week of       Services end when
                                   May, 4 days per     student has
                                   week. Offered to    reached $1,431.00
                                   all Clara           (approximately 22
                                   Brownell Middle     hours of
                                   School students.    instruction/
                                                       assessment).
                                                       Services offered
                                                       to low-SES (free/
                                                       reduced lunch
                                                       qualifying)
                                                       students only.
History of Effectiveness........  The last full
                                   program audit
                                   found students
                                   who attended 30
                                   or more
                                   demonstrated the
                                   following
                                   success:
                                                      A+ Advantage Point
Notes...........................  In addition to      All program data
                                   payroll costs,      supplied here is
                                   curriculum          representative
                                   materials and       only to services
                                   supplies for this   provided to
                                   program are         Umatilla School
                                   approx. $2,500/     District.
                                   year.               Services/
                                                       qualifications
                                                       may vary by
                                                       location.
------------------------------------------------------------------------

    Elements of the No Child Left Behind Act have had a profoundly 
positive impact on Clara Brownell Middle School. The emphasis on 
student subgroups, in lieu of overall student performance, led the 
school toward greater student success by forcing the school to closely 
examine and improve its professional practices for individual students. 
This change has greatly benefited students of poverty and English 
Language Learners. School improvement funding and Federal dollars have 
been essential in professional development support. Collaborative teams 
and strong professional development practices (paid professional 
development time, team time to review and utilize student data, 
instructional coaching and peer feedback during walk-through visits) 
have led to increased student achievement.
    Elements of the No Child Left Behind Act have had a profoundly 
negative impact on Clara Brownell Middle School. Labeling schools as 
``failing'' based on moving targets is damaging to the morale of staff, 
students and community members. Though CBMS was just four students away 
from 3 years of AYP success, it is labeled as failing and identified as 
a school ``in need of improvement.'' In fact, with historical test 
scores in the top of schools with similar demographics, Clara Brownell 
Middle School is far from failing. A label does emotional harm, yet the 
sanctions that come with the label require significant resources and 
dilute other services to students. Of largest concern to me as a school 
leader is the lack of research behind the sanctions. Supplemental 
Education Services are costly, yet have unproven effectiveness. The 
models required as solutions in the School Improvement Grant (SIG) 
process are based on model schools--many of which also fail to make 
AYP. It is difficult to maintain staff motivation and morale when the 
sanctions they must work to avoid are severe and unproven.
    As Reauthorization of the Elementary and Secondary Education Act 
moves forward, I urge our leaders to rely upon proven strategies to 
help our students succeed. Please maintain high expectations for 
student learning, transition from monitoring subgroup achievement to 
monitoring individual achievement, provide strong support for sustained 
professional development, offer funds for strong afterschool programs 
in lieu of unproven SES services, and avoid asking schools to change 
course without first giving them the time necessary for reforms to 
yield results. Education reform takes time and funding, sustaining the 
reforms takes reliable funding and continued momentum. Please consider 
an ESEA proposal that balances the need for action with the patience 
required for change to occur and the funding to allow reforms to be 
fully implemented and appropriately monitored. America cannot afford to 
continue to chase unresearched educational reforms.

    Senator Merkley. Thank you so much for your testimony.
    When you first shared this story with me when I was in 
Umatilla, it was just hard to believe. I want to emphasize some 
of the points you were making, to make sure I understand them.
    You have companies that do direct mailings, they get your 
student list. They do direct mailings to families and say, 
``Hey, if you ask for us, we will give you an iPod?''
    Ms. Sipe. Correct.
    Senator Merkley. Or let us see, what is it, an Xbox?
    Ms. Sipe. Xbox or Wii.
    Senator Merkley. And I can tell you what my son would 
choose.
    [Laughter.]
    My daughter would take the iPod. My son would take the 
Xbox. But the point is these are not in the structure of 
education. They are inducements to get students signed up so 
they can then charge you $55 per instructional hour.
    And did I understand correctly, when one tutor did one hour 
with several students, that that one hour for one tutor cost 
$165--
    Ms. Sipe. Correct.
    Senator Merkley. Because they had multiple students?
    Ms. Sipe. Correct.
    Senator Merkley. One hundred sixty-five dollars.
    Ms. Sipe. Correct.
    Senator Merkley. And that tutor was not a qualified 
teacher?
    Ms. Sipe. Correct. I have copies of all the billing sheets 
and goals in that----
    Senator Merkley. I just so appreciate getting this on the 
official record because I want folks back in Washington to make 
sure they hear this story. I have not heard that testimony back 
in Washington, DC, and your core point is that these dollars 
could go through tutors you can hire who are qualified and in a 
far more effective manner and, thereby, really improve the 
extra support that kids might need. You can do far better in 
terms of structure than what we have right now?
    Ms. Sipe. Absolutely.
    Senator Merkley. Thank you so much.
    Next we have Beverly Hollensteiner, superintendent of North 
Bend School District.

STATEMENT OF BEVERLY JUNE HOLLENSTEINER, SUPERINTENDENT, NORTH 
              BEND SCHOOL DISTRICT, NORTH BEND, OR

    Ms. Hollensteiner. Thank you for inviting me today to talk 
about No Child Left Behind.
    This is my 40th year in education. And when I started in 
1970, there was no 94-142, which is special education. There 
was no Chapter I, title I, or now as it is known as No Child 
Left Behind. And there was no title IX, and there was no 
Eisenhower money for technology. Education was purely locally 
controlled, and each of the above programs that I mentioned 
added value to what we were able to offer our students within 
our schools.
    I was very pleased when these programs came in. They 
brought staff development to our staff. They brought lots of 
extra services to our students. So Federal programs are an 
integral part of what we need and should have within our public 
schools.
    As the years have passed, however, these programs have 
become more prescriptive about the materials to be used, the 
curriculum to be taught, the qualifications of the staff, and 
what academic success is. We seem to be losing the balance of 
responsibility between what the Federal, the State, and the 
local community has for the education of children. Each has a 
role, but more and more dictates are following the money from 
the Federal level and diminishing the role and responsibility 
of the other important partners.
    As more and more schools fail under the guidelines of No 
Child Left Behind, more and more people will lose faith in 
their local schools. Thus, there will be less support for 
students in the community. Student success depends on the 
collaborative efforts of all of us. No Child Left Behind, I 
don't believe, supports this.
    I have chosen four talking points about No Child Left 
Behind. First, AYP. It is a design for failure. For example, 
one of our schools has 88 percent of the students meeting the 
standard for reading, but only 20 out of the 41 special 
education students met the standard. Thus, the school would be 
reported as not making adequate yearly progress.
    A district to the east of us will always meet AYP because 
they do not have enough students, the N number, to be 
statistically significant. So when this is reported in the 
local paper, North Bend doesn't make it. We fail. The district 
to the east of us will never fail because they don't have 
enough kids, and that is a real inequity when we look at the 
numbers.
    Second, we are a mid-sized district with just over 600 
students within our high school. So to meet the requirements of 
NCLB in all respects concerning ``highly qualified'' would mean 
that we would have to lay people off for one or two periods and 
hire another teacher for one or two periods who has the proper 
endorsement to teach a particular class.
    For example, what has happened this year. We do not have 
enough students who have signed up for one particular content 
area, and then in another content area, we have more students 
than what we have a person qualified to teach. So we have mis-
assigned a teacher to teach two periods of a content with more 
students signed up, and we believe that this person will do an 
excellent job.
    If we wanted to fully comply with No Child Left Behind, we 
would lay off a teacher for two periods, hire another teacher 
with the proper endorsement for those two periods for what 
could be maybe one or two trimesters out of the whole year. 
This is even more true for districts as they get smaller and 
smaller.
    It is difficult, if not impossible to find staff who are 
willing to work under these conditions. And if we mis-assign, 
we must write a report and get permission from two different 
entities. Plus, we have to notify parents that we don't have 
highly qualified staff. It appears the district is failing to 
hire proper teachers for the children.
    The supplant and supplement issue comes into play when we 
move programs designed to help students who are not making 
adequate progress into the upper grades. We use NCLB money at 
the K-4 level for increased reading instruction. As we move 
programs which help children who have difficulty learning into 
the grades above four, we must use district money to pay for 
these programs. When we do, we can't use Federal money for the 
same thing that we use district money to pay for.
    So our older students are starting to lose out on the extra 
help because there is neither enough district money to fund all 
the grades, nor is there enough Federal money to fund all the 
grades. When students do not have the same level of help as 
they move through the grades, parents ask why. Again, the 
district is appearing to fail to provide what the students 
need.
    Reporting requirements. We are required to write plans for 
everything and then followup with reports for everything. 
Sometimes the plans change mid-year. We are required to report 
on plans written for a year before the year is up. Thus, we end 
up explaining what is not working, what is working, before we 
fully implement it and then explain in the report how we are 
going to fix what has not been fully implemented.
    It takes more than a year to determine if a plan is working 
and whether students are making sustained progress. We end up 
with plan after plan, report after report, and looking at 
short-time fixes that may or may not be fixes for students who 
are having difficulty.
    I estimate for our district, of the 2,000 students we have, 
that we have at least three time FTE completing reports of some 
kind for No Child Left Behind. Are we failing our plans?
    The goals of No Child Left Behind are the same ones we have 
for our students. We all want children to succeed by reading at 
high levels, by being able to use math at high levels, and by 
being people who can write at high levels. More of our students 
are meeting benchmark, yet we are reported as needing 
improvement, as if no progress has been made.
    We have great teachers, yet not all are highly qualified 
under No Child Left Behind. We implement plans, but must report 
on the plans before they are finished and figure out then how 
we can manage to serve all of the kids equally without 
supplanting or supplementing incorrectly.
    [The prepared statement of Ms. Hollensteiner follows:]
           Prepared Statement of Beverly Jeanne Hollensteiner
                           ayp accountability
    <bullet> The system is set for the majority of districts/schools 
(i.e. those with enough students for a statistical cell size) to 
eventually fail.
    <bullet> 100 percent of all students meeting proficiency benchmarks 
is unrealistic for various reasons--high mobility rates; effects of 
economy on family stability; special needs that can't be overcome by 
better instruction.
    <bullet> Proficiency level is a moving target--even if a district, 
school, or even student makes progress, it will never be enough because 
the expectation keeps increasing.
    <bullet> Even with the implementation of growth targets, students 
with the most significant gaps have to make the largest gains to meet 
the targets. For students with a true cognitive disability this is 
unreasonable.
    <bullet> Schools can raise achievement levels for all students, and 
be rated poorly because of a single subgroup.

        <bullet>  One of the district schools had 88 percent (188/213) 
        of all students meet grade level benchmarks in reading, but 
        will be reported to the public as not meeting AYP because only 
        49 percent (20/41) of the students with disabilities subgroup 
        met the reading benchmark. The building has implemented 
        intensive interventions for struggling students to help ensure 
        that only those students truly needing special education are 
        identified.
        <bullet>  Schools with smaller student populations, and 
        consequently a smaller subgroup size can have fewer students 
        meet and still meet AYP.
                        paperwork accountability

    <bullet> NCLB requires an excessive number of compliance reports, 
collections of evidence, and plans many of which are duplicated 
information, but frequently with their own template which generally 
changes from year to year and sometimes mid-year. Some examples are: 
District improvement plans, school improvement plans, district 
professional development plans, notebooks of evidence collection for 
each of the Federal grant programs, plans and end of year reports for 
Federal grant programs. Even in small districts coordinating this 
process can be a full-time job.
    <bullet> In addition to the standard reports, there are improvement 
reports that have to be submitted yearly when a district or school is 
out of compliance with any of the requirements (highly qualified 
teachers, AYP, AMAOs, etc.)
        <bullet>  Improvement plans are required yearly and districts 
        are required to explain what is wrong and what they are going 
        to do to fix it. Sustainability can't be built on yearly plans 
        and program changes take longer than a year to implement and 
        evaluate.
                         financial restrictions
Supplement/Supplant
    <bullet> There is no flexibility for districts to provide 
comparable (or even at a minimal level) staffing, professional 
development opportunities, programs, and technological support to non-
title schools as schools having title I-A funds for that purpose.
    <bullet> There isn't enough Federal money coming into the district 
to fund all schools so it becomes necessary to choose which grade 
levels should have additional services and to identify the services 
with the most impact. For most districts this means funding needs to 
target elementary schools. By the same token there aren't enough 
district/State funds to provide all the supports necessary at all 
levels. Because of the supplement/supplant restriction, students 
leaving the lower grades who may not be candidates for special 
education, but would continue to benefit from extra support may not get 
what they need to continue growing.
    <bullet> Initiatives that benefit all students such as RTI and its 
screening, intervention strategies, and progress monitoring components 
are difficult to sustain at the upper grades without being able to 
support them with district funds. These types of programs are integral 
to the title schools. If Federal funds can't continue to be used in 
title buildings when these programs are moved to non-title buildings, 
they could become watered down or disappear altogether.
Spending Timelines/Permission
    <bullet> It is assumed if money isn't expended by a certain date, 
it isn't needed. Districts who try to look at long range planning and 
create sustainable programs may have difficulty allocating money for a 
specific purpose when there is a possibility that there won't be enough 
to continue the program for the following year. It is assumed that if 
the money isn't spent by end of a certain date the district doesn't 
need it. As a consequence, districts are forced into short term, year-
to-year planning.
    <bullet> Districts are being required to be very specific about how 
money will be spent. A few years ago, a budget narrative could request 
a certain amount of money for professional development that addressed 
an area of need based on individual school improvement plans. This 
year, not only did the area of PD have to be defined, but the school 
was expected to know exactly what that would be. Schools don't 
necessarily know in September what will be available later in the 
school year.
    <bullet> All spending has to be justified and approved. Districts 
are not allowed to determine their individual needs if the needs fall 
outside of Federal and/or State approved programs.
    <bullet> Budget narratives are written based on district/school 
needs identified in plans. If anything changes in the prospective plan, 
it is necessary to get permission to change the narrative. This can be 
frustrating and time consuming when busy people don't get emails 
answered and phone calls returned in a timely manner.
                            highly qualified
    <bullet> This has been difficult to implement, especially in 
smaller schools and school districts. For example, if a teacher is 
``misassigned'' to teach one class for which they are not formally 
endorsed/certified but the district believes the teacher does have the 
background to teach the class successfully, it must be reported to the 
State licensing bureau (TSPC) and to Oregon Department of Education. If 
the district and/or a building is in ``In Improvement'' status, meaning 
they did not meet the achievement levels required by NCLB, the district 
must write a professional development plan for the district and reduce 
the title I funds going to K-4 grades to increase reading skills and 
use that money to provide district-wide staff development in the area 
of deficiency (math in our case) as identified by the State testing.
    <bullet> In small high schools, especially those under 700 
students, we find ourselves with one or two periods of a particular 
subject area for which we do not have a ``highly qualified'' teacher. 
To address this issue, we have these choices: we can misassign someone 
within our staff who we believe has the skills to teach the class, try 
to hire a teacher to come in and teach one to two periods a day and 
``layoff '' current staff for one or two periods, or drop the classes. 
We choose to misassign as we want students to be able to take the 
classes.
    <bullet> Another issue is that Oregon's licensure categories do not 
match those found in NCLB, as I am sure is the case in other States. 
For example, Oregon has a ``multiple subject area endorsement'' which 
allows teachers to teach an array of subjects at certain grade levels, 
if social studies, for example, is not listed, then the teacher with 
``multiple subject areas,'' cannot teach social studies unless they 
take a test.
    <bullet> The paperwork load in the personnel office continues to 
escalate as we must check the rules for NCLB and the State licensing, 
try to satisfy the requirements of both while also trying to work out 
school schedules that work for students and staff, and do the paperwork 
necessary to be in compliance.
                        instructional assistants
    <bullet> The ``sight and sound'' (Oregon wording) and ``under 
direct supervision'' (Federal wording) for the use of instructional 
assistants has also become an issue. Instructional assistants are 
critical to assist children who have reading difficulties in learning 
to read through practice of reading and/or review of skills taught by 
the teacher. As it is now, IA's must be within the ``sight and sound'' 
of a teacher who is also working with a small group of students, thus 
two groups or sometimes even three groups of students end up being in 
close proximity to each other which makes for a very noisy learning 
environment. The lessons prepared by the teachers for the instructional 
assistants to use as additional practice for students could be better 
implemented if they could use space further away from the teacher.
                        curriculum and materials
    <bullet> Curriculum is another area of concern. Right now, 
identifying the ``standards'', the ``essential learning skills'' and 
the myriad of other identifiers for what students need to know and 
understand are being revised by individual States, by organizations 
that represent content (National Council of Teachers of Mathematics, 
for example) and by Federal Government. As high stakes testing becomes 
more and more of a reality, we need to have a well-defined curriculum 
with materials that support the curriculum so students can be assured 
they are learning what is necessary to do well on the tests. Since our 
populations of students is becoming more and more mobile it is 
essential that as students move they are assured they are being taught 
a ``core'' curriculum.
    <bullet> As money has declined for school districts so too has the 
ability to buy new materials and textbooks so many of us are using 
materials adopted more than 7 years ago and staff is having to spend 
time searching out materials that support what they are to teach and 
students are to learn.

    Senator Merkley. Thank you. I am going to have you pause on 
that note.
    How many categories under AYP do you analyze?
    Ms. Hollensteiner. Categories?
    Senator Merkley. One is whether you meet it in special 
education. Then you have various categories of ethnic groups, 
etc. How many different ways is the data sliced?
    Ms. Hollensteiner. Oh, I can't go through all of those, but 
we look at all of those different areas. And looking at all of 
those areas, you can fail in any one of them. I can't tell you 
what they all are right now.
    Senator Merkley. The number is 9 or 10 or something like 
that, right?
    Ms. Hollensteiner. Yes, it is a high number.
    Senator Merkley. And is North Bend meeting AYP in 
everything, but the special education category?
    Ms. Hollensteiner. In the particular school I am talking 
about, yes, except for the special education. We don't have a 
very high number of students with different language learning 
issues and those kinds of things. We have a very low number.
    Senator Merkley. And 88 percent is a pretty good overall 
rate for that particular school.
    Ms. Hollensteiner. Yes, 88 percent.
    Senator Merkley. But nonetheless, the whole entire school 
is labeled as a failure, if you will?
    Ms. Hollensteiner. Right.
    Senator Merkley. And this is a story we have certainly 
heard throughout the State. And it is a big deal.
    Do you find that if the punitive structure of No Child Left 
Behind was taken away, does the data itself and slicing it in 
many different directions prove helpful to understanding the 
progress of the school and the service to different subgroups?
    Ms. Hollensteiner. Yes, I think it does. And I think that 
is one of the things that I liked about some of the Federal 
programs coming in because it did look at equalizing education 
for all students.
    So, yes, I don't mind the slicing of it. It is just that 
one small category can bring down the whole school. It appears 
to the community as if we are failing again.
    Senator Merkley. OK. Do you have the same observations as 
Superintendent Sipe, who noted the kind of dollars misspent, or 
not in the most effective strategy, for the tutoring process. 
Do you have similar sorts of experience?
    Ms. Hollensteiner. We haven't reached that point yet.
    Senator Merkley. OK.
    Ms. Hollensteiner. And I say yet.
    Senator Merkley. All right. Because you have to hit that 
third year, and then you are in that?
    Ms. Hollensteiner. Right.
    Senator Merkley. OK. Thank you for your feedback on the 
reporting requirements.
    We are now going to turn to Eduardo Angulo, who is with the 
Coalition for Equality. Great to have you.

 STATEMENT OF EDUARDO ANGULO, CHAIRMAN AND EXECUTIVE DIRECTOR, 
          SALEM/KEIZER COALITION FOR EQUITY, SALEM, OR

    Mr. Angulo. Thank you, Senator.
    For 12 years, we have been working, helping parents gain 
the confidence and power they need to take control of their 
children's education by becoming active partners with their 
local schools. I work with mostly Latino farm workers, parents 
in Oregon.
    Very few of these parents are fully proficient in English. 
Even fewer believe that their children are not capable of 
learning English and excelling academically. They have high 
expectations for their children. Unfortunately, this has not 
yet resulted in high achievement. I am here to represent, as 
best as I can, the point of view of these parents.
    I am going to give you some background. In the 1997-98 
school year, about 1 in 12, or 8.1 students in Oregon was 
Latino or Hispanic. Today, more than 1 in 5 students, or 20.5 
percent are Latinos. In 2009, the number of students that 
needed English as second language instruction was 65,398, up 
from 13,425 in 1997-98.
    The data makes it clear that the present and future of 
Oregon in schools will include a large portion of Latinos and 
English language learner students. Unfortunately, the State's 
public schools have room to improve in educating its Latino and 
English language learners population.
    Currently, over half--yes, over half--52 percent and 51 
percent, respectively, of Latinos and ELL students graduate in 
4 years. The policy choices we make today will affect thousands 
of students and shape the opportunities available for them as 
adults and the economic forecast for Oregon.
    Our recommendations for the reauthorization include high 
academic standards for all students, appropriate assessments to 
measure a student's achievement and progress, accountability 
for results. We support a fair system of accountability for all 
school districts and schools, accountability for all subgroups.
    It is important to keep the current law focused on all the 
students. This means keeping the law's requirement holding the 
schools accountable for students based on income, race, 
ethnicity, disability, and English proficiency status. And of 
course, what is important to us is strong parental involvement.
    Everyone understands that parents are the consumers and the 
main stakeholders of our Pre-K-12 public education system in 
America. They are the ones who monitor the academic progress of 
their children and make important decisions about their 
children's education.
    Unfortunately, when we look at parents from low-income and 
minority communities, they have not had the power to shape 
public education reform the way more affluent parents can. 
Title V includes the local family information centers. It was 
just defunded. This is a program that has helped build the 
capacity in parental, meaningful parental, involvement 
throughout Oregon and throughout the Nation.
    Few can argue that the current version of No Child Left 
Behind or the ESEA has worked perfectly. However, the Salem/
Keizer Coalition for Equality is prepared to make the case that 
it has made a positive difference for the parents we serve in 
the Willamette Valley and throughout Oregon.
    No Child Left Behind has provided parents with tools to 
help transform the local schools. These tools are sunshine, 
transparency, and accountability for results.
    Sunshine, lighting on low achievement scores, finally 
showing everyone that our kids are not being well served by the 
public schools. Transparency, letting us know who is teaching 
our children and whether or not they are doing a good job. And 
accountability, so that schools that are not doing well have to 
improve.
    Thank you.
    [The prepared statement of Mr. Angulo follows:]
                  Prepared Statement of Eduardo Angulo
    Good morning. My name is Eduardo Angulo. I am the Chairman of the 
Salem/Keizer Coalition for Equality. The Coalition is an affiliate 
organization of the National Council of La Raza (NCLR) and it engages 
in several activities on behalf of the residents of the Willamette 
Valley in Oregon. We have identified education as one of our major 
priorities, and have been in the business of helping parents gain the 
confidence and power they need to take control of their children's 
education by becoming active partners with their local schools.
    I work with mostly farmworking parents in Oregon. Very few of these 
parents are fully proficient in English. Even fewer--I would say none--
believe that their children are not capable of learning English and 
excelling academically. They have high expectations for their children. 
Unfortunately, this has not yet resulted in high achievement.
    I am here to represent--as best as I can--the point of view of 
these parents. In my testimony today, I will discuss how strengthening 
accountability and parental involvement in the reauthorization of the 
Elementary and Secondary Education Act (ESEA) will help these parents 
and their children.
                               background
    I would like to first provide some background on Hispanic and 
English Language Learners (ELL) students in Oregon and why getting 
policies right for these children is important for the Oregon public 
school system and its economic future overall. In the 1997-98 school 
year, about 1 in 12 (8.1 percent) students in Oregon was Hispanic. 
Today, more than one in five students (20.5 percent) is Hispanic. In 
the 1997-98 school year, the estimated number of students for whom 
English was not the primary language and who needed English Language 
Development (ELD) services was 13,425. In 2009-10, that number was 
65,398. The number of students identified as needing ELD services has 
increased 32 percent per year. The data make it clear that the present 
and future of Oregon schools will include a large proportion of Latino 
and ELL students.
    Unfortunately, the State's public schools have room to improve in 
educating its Hispanic and ELL populations. Currently, just over half 
(52.6 percent and 51.4 percent, respectively) of Latino and ELL 
students graduate in 4 years. The policy choices we make today will 
affect thousands of students, and shape the opportunities available to 
them as adults.
                 recommendations for reauthorizing esea
    The right mix of policies can make a difference for these students. 
From the perspective of the Salem/Keizer Coalition for Equality, the 
reauthorization of ESEA must contain a focus on standards-based reform, 
which includes:

    <bullet> High academic standards for all students. We believe that 
every child can learn and achieve at a high level. However, we must 
challenge all students to meet high standards and provide them and the 
schools they attend with the resources to do so. We would oppose having 
separate, lower standards for Hispanic or ELL students. Instead, we 
would support targeting resources to schools that need them most to 
help students meet standards.
    <bullet> Appropriate assessments to measure student achievement and 
progress. Policymakers, educators, parents, and students should know if 
students are meeting standards or making progress toward high 
standards. This means that tests must be aligned to the standards and 
should provide information to stakeholders about student performance. 
For ELLs, it also means tests must be accessible, and in some cases, 
should be in the language of instructions provided to students.
    <bullet> Accountability for results. ESEA reauthorization must 
include a fair way to hold schools accountable for helping students 
meet standards and make progress. At the Salem/Keizer Coalition for 
Equality, we fear that without such a system, ESEA will return to the 
days in which States and districts will only have to report how they 
used funds, not whether or not taxpayer dollars actually produced 
results for students. We support a fair system of accountability for 
all districts and schools.
    <bullet> Accountability for all subgroups. We also believe it is 
important to keep the current ESEA law's focus on all students. This 
means keeping the law's requirement holding schools accountable for 
students based on income, race/ethnicity, disability, and English 
proficiency status.
    <bullet> Strong parental involvement. Everyone understands that 
parents are the consumers and main stakeholders of our Pre-K-12 public 
education system in America. They are the ones who monitor the academic 
progress of their children and make important decisions about their 
children's education. The parents I work with share this responsibility 
with parents from more affluent communities throughout this country.
    Unfortunately, when we look at parents from low-income and minority 
communities, they have not had the power to shape public education 
reform the way more affluent parents can. Title V of ESEA includes the 
Local Family Information Centers (LFICs) program, which would provide 
resources to community groups to prepare parents for their 
responsibilities under ESEA to hold schools accountable at the local 
level. However, the LFICs program was never funded. LFICs must be 
maintained in reauthorization and adequately funded.
                               conclusion
    Few can argue that the current version of ESEA has worked 
perfectly. However, the Salem/Keizer Coalition for Equality is prepared 
to make the case that it has made a positive difference for the parents 
we serve in the Willamette Valley. No Child Left Behind has provided 
parents with tools to help transform their local schools. These tools 
are sunshine, transparency, and accountability for results. Sunshine 
lighting on low achievement scores, finally showing everyone that our 
kids are not being well-served by the public schools; transparency 
letting us know who is teaching our children and whether or not they 
are doing a good job; and accountability so that schools that are not 
doing well have to improve.
    From the parents' perspective, things are finally changing for our 
children. NCLB has allowed parents to hold our public schools 
accountable and it has allowed us to be in the room to be part of the 
solution to closing the achievement gap. Now, our parents can 
confidently walk to their local public schools, knock on the door, and 
be invited to be part of the decisionmaking process. This has always 
happened in more affluent communities. Now it is starting to happen in 
a small farmworking community in the middle of the Willamette Valley in 
Oregon. ESEA reauthorization must build on this momentum for public 
education reform.

    Senator Merkley. So tell me this, as you talk about the 
accountability, and No Child Left Behind has a series of 
measures after 3 years of nonperformance that start kicking in, 
do you think generally those strategies are on target, or are 
they counterproductive? In other words, when one component of 
what you are talking about is the visibility of results, the 
transparency, but another is what you do with those results, 
and how do you feel about the current set of measures written 
into NCLB?
    Mr. Angulo. We have over 8 million English language 
learners throughout our Nation. Fifty-two percent graduation 
rate for these kids throughout the Nation. I mean, the answer 
is we are just basically starting to figure out how to help 
these kids.
    I was part of the Race to the Top design team in Oregon, 
and the brightest minds were around the table. For months, we 
worked on this grant development, and we came out almost last 
because the reality is that our public education leadership is 
just barely getting to understand clearly how to better help 
these kids and put their resources in helping these kids.
    For us, we are involving parents because we believe that 
building the capacity in the parents, they can develop the 
collaborations that are needed with the teachers and with the 
superintendents and with the principals in order to better 
help. I mean, the English language learners in Oregon are our 
Latino students. We are disheartened by what is happening with 
our public education system, where we are to how they are 
serving our English language learners.
    We need to have them to be at the center, along with the 
African-American kids, along with all the kids--the Asian 
kids--that are doing really badly as English language learners. 
They have to be at the center of education reform in Oregon and 
throughout our Nation.
    Senator Merkley. Thank you.
    Tony Hopson, executive director of Self-Enhancement, Inc.

STATEMENT OF TONY HOPSON, EXECUTIVE DIRECTOR, SELF-ENHANCEMENT, 
                       INC., PORTLAND, OR

    Mr. Hopson. Senator, thanks for the opportunity. It is good 
to see you again, and I look forward to seeing you soon in 
Washington, DC.
    Senator, the facts are compelling. Every 26 seconds, 
another student drops out of school. We know that a third of 
our students drop out each year, a third graduate unprepared 
for college, and another third graduate prepared for college.
    We also recognize that the poor children and children of 
color disproportionately represent the third that is dropping 
out, which contributes to the disparities in the criminal 
justice system, economic development, healthcare, and 
ultimately mortality.
    The Nation seems to be paralyzed on what to do. So we spend 
billions of dollars annually to study, research, and theorize 
about what works. We talk about having great teachers and 
leaders in every school. We shout about equity and opportunity 
for all students. We insist that raising the bar and rewarding 
excellence will make the difference, and then we look for 
innovation and continuous improvement as the solution.
    My frontline experience suggests to me that all of these 
are necessary, depending on what outcome you want and how soon 
you expect to achieve it. But nothing has occurred in the last 
few decades that lead us to believe that moving the needle on 
any of the above strategies comes soon enough. During my talk 
thus far, we lost another five students.
    So what should we change within the ESEA? We should change 
the relationship between the school and the community. We need 
a paradigm shift in public education that recognizes the 
urgency and need for the public-private partnership that 
educates the whole child and supports the whole family. We must 
recognize that in order for public education systems to be 
successful, they must include family, community, and school 
life.
    In addition, how often can we actually point to someone who 
takes full responsibility for the success or failure of a 
student? Is it the parent, the teacher, the principal, the 
coach? Who is it?
    Most often, you will find many of these individuals 
pointing fingers at each other. So ESEA must put a provision 
into law with accompanying resources that strongly encourages 
low-performing schools to partner with proven community-based 
organizations in a full partnership that provides a safety net 
that all kids need, but many fail to get.
    Believe me when I tell you that those of us on the front 
line see and feel the pain. And Senator, you would not like the 
feel of the pain.
    The answer does not need to be studied anymore. This, in 
simple terms, is about the safety net options and opportunities 
that kids either have or don't have. All kids stumble and all 
kids fall. The question is what support system are there to 
help that kid get up?
    Either you have a support system in place or you don't. I 
contend that most low-achieving school students don't have this 
in place and, therefore, never get up. The key is to put that 
in place for every kid and then be accountable for the success 
or failure of that kid.
    Let me give you an example. It was highlighted in the movie 
``Waiting for Superman,'' and in a conversation I had with 
Secretary Arne Duncan, he used this point as well, that 50 
percent of the dropouts in America are coming from basically 
2,000 low-
performing high schools across the Nation. I believe that we 
should focus on not only those who dropped out of those 
schools, but also those who did not.
    We should identify the reason why 50 percent of these kids 
actually made it in a low-performing school. I guarantee you it 
was because of a safety net--a strong parent, grandparent, 
teacher, coach, or a community that would not let that kid 
fail.
    In my opinion, the best way to achieve this is through what 
we call an MSO, or multiservice organizations. The most notable 
of these today would be the Harlem Children's Zone. It is not a 
silver bullet, but it is a successful model, working with 
children and families that also partners with schools to get 
the desired outcome.
    The innovation in Portland Public Schools is called Self-
Enhancement, Inc. Like Harlem Children's Zone, Self-
Enhancement, Inc., is a multiservice organization able to serve 
kids and families and bring an authenticity to the school-
community partnership for lasting results.
    Self-Enhancement, Inc., as a community-based program, 
partners with the local school district, individual schools, 
teachers, and the teachers union to provide the complete safety 
net for every kid that enrolls in the program. It is a program 
that works 24-7, 365 days a year, a program that takes full 
responsibility for the success or failure of each kid.
    It is a 30-year-old program that touches over 3,000 kids 
per year, graduates 98 percent of the students enrolled in the 
program, and sends 85 percent to college. It is a program that 
produces positive, contributing citizens. Meaning that every 
kid in the program that graduates from high school will 
complete a minimum of 2 years of college, vocational training, 
or work in a family-wage job.
    We have proven that if we can provide each child with 
discipline, direction, support, and unconditional love--and 
combine this with what most schools provide every day--this 
will equal a positive, contributing citizen.
    So, in conclusion, I first believe we must mandate that 
low-achieving schools partner with proven community-based 
organizations that represent the school's community in order to 
provide a complete safety net of family, community, and school 
life.
    Second, we must look at identifying and scaling up 
authentic community-based organizations and multiservice 
organizations, like Self-Enhancement, Inc., that have proven 
track records in school communities in need, but that they also 
have the ability to partner with districts, schools, teachers, 
and unions to better provide the discipline, direction, 
support, and unconditional love necessary for maximum success.
    [The prepared statement of Mr. Hopson follows:]
                   Prepared Statement of Tony Hopson
    I would like to focus my comments today on two areas: First, based 
on my experience, what would be the single most important change that 
Congress could make as a part of the reauthorization, and second, what 
innovative programs or strategies developed locally that could scale up 
and be integrated into ESEA and benefit students across the country. 
The facts are compelling. Every 26 seconds, another student drops out 
of school. We know that a third of our students drop out each year, a 
third graduate unprepared for college, and another third graduate 
prepared for college. We also recognize that poor children and children 
of color disproportionately represent the third that's dropping out, 
which contributes to the disparities in the criminal justice system, 
economic development, health care, and ultimately mortality.
    The Nation seems to be paralyzed on what to do. So we spend 
billions of dollars annually to study, research, and theorize about 
what works. We talk about having great teachers and leaders in every 
school. We shout about equity and opportunity for all students. We 
insist that ``raising the bar'' and ``rewarding excellence'' will make 
a difference, and then we look for innovation and continuous 
improvement as the solution.
    My frontline experience suggests to me that all of these are 
necessary depending on what outcome you want, and how soon you expect 
to achieve it. But nothing has occurred in the last few decades that 
lead us to believe that moving the needle on any of the above 
strategies comes soon enough. During my talk thus far, we lost another 
five students. So what should we change within ESEA? We should change 
the relationship between the school and the community. We need a 
paradigm shift in public education that recognizes the urgency and need 
for the public/private partnership that educates the whole child and 
supports the whole family. We must recognize that in order for public 
education systems to be successful, they must include family, 
community, and school life. In addition, how often can we actually 
point to someone who takes full responsibility for the success or 
failure of a student? Is it the parent, the teacher, the principal, the 
coach? Who is it? Most often, you'll find all of these individuals 
pointing fingers at each other. So ESEA must put a provision into the 
law, with accompanying resources, that strongly encourage low 
performing schools to partner with proven community-based organizations 
in a full partnership that provides the safety net that all kids need, 
but many fail to get. Believe me when I tell you that those of us on 
the front lines see, feel, smell, and taste the pain. And Senators, you 
would not like the way it taste.
    The answer does not need to be studied anymore. This, in simple 
terms, is about the safety net, options, and opportunities that kids 
either have or don't have. All kids stumble, and all kids fall. The 
question is, what support systems are there to help that kid get up? 
Either you have a support system in place, or you don't. I contend that 
most low achieving school students don't have this in place, and 
therefore, never get up. The key is to put that in place for every kid, 
and then be accountable for the success or failure of that kid. Let me 
give you an example: It was highlighted in the movie ``Waiting for 
Superman'', and Secretary of Education Arnie Duncan uses the point as 
well that 50 percent of the drop outs in America are coming from 
basically 2,000 low-performing high schools. I believe that we should 
focus on not only those who dropped out of those schools, but also 
those who did not. We should identify the reason why 50 percent of 
these kids actually made it in a low-performing school. I guarantee you 
it was because a safety net--a strong parent, grandparent, teacher, 
coach or a community that would not let that kid fail. In my opinion, 
the best way to achieve this is through a MSO, or multi-service 
organization. The most notable of these today would be Harlem 
Children's Zone. It's not a silver bullet, but it's a successful model 
working with children and families that also partners with schools to 
get the desired outcome.
    The innovation in Portland Public Schools is called Self 
Enhancement, Inc. Like Harlem Children's Zone, Self Enhancement, Inc. 
is a multi-service organization able to serve kids and families and 
bring an authenticity to a school/community partnership for lasting 
results. Self Enhancement, Inc. as a community-based program partners 
with the local school district, individual schools, teachers, and the 
teacher's union to provide the complete safety net for every kid that 
enrolls in the program. It's a program that works 24/7, 365 days a 
year; a program that takes full responsibility for the success or 
failure of each kid. It's a 30 year-old program that touches over 3,000 
kids per year, graduates 98 percent of the students enrolled in the 
program, and sends 85 percent to college. It's a program that produces 
``Positive Contributing Citizens''--meaning that every kid in the 
program who graduates from high school will complete a minimum of 2 
years of college, vocational training, or work at a family wage job. We 
have proven that if we can provide each child with discipline, 
direction, support, and unconditional love, and combine this with what 
most schools provide every day; this will equal a Positive Contributing 
Citizen.
    So, in concluding, I first believe we must mandate that low 
achieving schools partner with proven community-based organizations 
that represent the school's community in order to provide the complete 
safety net of family, community, and school life. Secondly, we must 
look at identifying and scaling up authentic community-based 
organizations and multi-service organizations like Self Enhancement, 
Inc. that have a track record in the school communities in need, but 
also have the ability to partner with districts, schools, teachers, and 
union to better provide the discipline, direction, support and 
unconditional love necessary for maximum success.
    You all have an awesome job to do. Somehow, I believe that your 
answers lie deeply rooted in individuals who claim the streets and 
communities which these kids come from. We need a mechanism that allows 
them to speak, participate, and support those they serve daily.
    Thank you.

    Senator Merkley. Thank you, Tony.
    And I must say, Self-Enhancement, Inc., is an incredible 
institution, and under your leadership has done amazing things.
    The model that you talk about in terms of partnership, I 
can imagine, if I am a parent with children in a nearby school, 
I can take comfort in that partnership. But there isn't a Self-
Enhancement, Inc., in every community or every district. And 
that is where you talked at the end about scaling up.
    But let us say in the absence of where there is that type 
of organization, are there other things we can do to keep 
children from getting lost in the system? I am calling it 
``getting lost.'' You referred to it as ``support system, 365-
day support system.''
    Mr. Hopson. Yes, Senator. There are a number of programs 
throughout this State and across the Nation who attempt to do 
this.
    The question is, how serious are you about it? A lot of 
folks pretend to do this work. In our world, we put our last 
name on every kid. A lot of folks pretend to provide support 
services for kids, but they are not following that kid home and 
are not prepared to deal with any of the issues that are going 
on at that home site.
    Unless you are prepared to go that far, we cannot rectify 
this issue. We have got educators in this room that are doing 
great work every single day. But they can't go home and deal 
with this dysfunctional family situation and the fact that 
Johnny showed up hungry and got younger brothers and sisters 
that are hungry, too. But yet we are trying to educate them and 
teach them math.
    Those issues are not going to be dealt with in the school 
setting. We need programs like ours who do that business and do 
it well, and every school needs to identify an entity that can 
help them do that.
    I think it is unfair that we charge our schools with the 
totality of educating the kid as if they are supposed to be 
teachers and social service workers at the same time. So I 
believe that in many circumstances this service that I am 
talking about is not available, and that is why you see the 
dropout rate as high as we see it today.
    Senator Merkley. Thank you. Thank you very much.
    And I want to thank the entire panel for your insights and 
for your work in so many dimensions of the challenge of 
bringing education to our communities and to our children.
    We are going to shift gears now in our second hour to the 
science, technology, engineering, and mathematics side of the 
equation.
    And Dr. Koch is going to kick us off.

 STATEMENT OF ROY KOCH, Ph.D., PROVOST AND VICE PRESIDENT FOR 
   ACADEMIC AFFAIRS, PORTLAND STATE UNIVERSITY, PORTLAND, OR

    Dr. Koch. Thank you, Senator.
    It is a pleasure to provide comments on behalf of Portland 
State and President Wim Wiewel, especially related to some 
approaches that we believe are effective in addressing the 
challenges of improving student success in K-12, and in 
particular STEM education. So maybe I can serve as a sort of 
transition between those things.
    We all recognize the important role that education plays in 
the success of both individuals and society. My remarks today 
will focus on how universities, working with school districts 
and many other business, civic, and social service 
organizations, can contribute to greater student success in K-
12 and better preparation for and, therefore, greater success 
in higher education. And I will focus, in particular, on some 
comments on the STEM education.
    As universities, we can and many do, including Portland 
State, contribute to improvement of student success in the Pre-
K-12 system in several important ways. Obviously, we are 
responsible for the preparation of teachers, a very important 
component.
    But we also lead and participate in research that addresses 
improved educational practices in student success, and in most 
cases, we do this working collaboratively with the community as 
well. And we have various programs that work directly with the 
school systems.
    Rather than address specific programs, today I would like 
to focus on two key approaches that we believe will lead to 
increased student success and illustrate them by highlighting 
some of the work that we have been involved in lately. And you 
heard this theme from several of our previous speakers.
    We believe that effective programs to addressing student 
success in the entire educational continuum have two important 
characteristics. One is that they are collaborative, and the 
second is that they have an ongoing evaluation and assessment 
process.
    For this work to be effective and to address the most 
important problems, it is essential that the university work 
with school districts for sure. But it also requires us to have 
a more holistic approach, engaging the entire community in 
identifying the important issues that need to be addressed and 
in promoting student success.
    This approach recognizes the success of the student--it 
recognizes that the success of the student depends on what 
happens in the classroom, as well as the environment that 
exists in the home and in the community. It also recognizes 
that there are many organizations that can make contributions 
to improving student success and that a coordinated effort is 
much more effective.
    The ESEA should promote this collaborative approach to 
identifying and solving problems related to improving student 
success.
    With regard to evaluation and assessment, it is not 
sufficient to undertake programs aimed at improving student 
success. It is necessary to continuously and rigorously 
evaluate those programs in light of the educational and related 
outcomes that we expect.
    Here are a couple of examples where we at Portland State 
and our community partners are approaching this issue of Pre-K-
20 student success in this way. The first relates to our 
Cradle-to-Career Project. And when I say ``our,'' I mean the 
entire community's Cradle-to-Career Project.
    In Portland and Multnomah County, we are implementing the 
STRIVE model as one of the several demonstration sites around 
the country. This is a real example of collective commitment to 
the idea that academic success depends on attention throughout 
the development of the student and occurs both inside the 
classroom and within the community.
    It is a real collaboration between government, school 
districts, nonprofits, and our university. And the Cradle-to-
Career organization has taken on the role of coordinating 
efforts, convening various community partners and school 
districts around the issue, and reporting on progress through 
the report card, a project that has now begun and will be 
issued on an annual basis.
    A second project relates specifically to STEM education. A 
major challenge over the last decade that has been attracting 
the best and brightest students into STEM fields, both as 
practicing engineers and scientists, but also as teachers in 
the STEM disciplines. A particular aspect of this issue is that 
our current STEM majors do not reflect the diversity that 
exists in our society, and with our changing demographic, this 
presents an even greater challenge to meeting the needs for a 
trained professional workforce in the future.
    At Portland State, we have a number of programs to promote 
and support participation in STEM disciplines. However, these 
programs only work if there is an adequate number of properly 
prepared and motivated students coming out of the K-12 system, 
and that is not currently the case.
    So our most ambitious project to date is to develop what 
are called STEM education centers. These are a broad-based 
collaborative effort involving most of the Portland 
metropolitan region school districts, Portland State 
University, the Oregon Health and Science University, other 
higher education institutions, and a number of our corporate 
partners, including Intel, who have been very supportive of 
this work.
    In undertaking this approach, we are asserting again that 
the most effective way to improve student achievement in STEM, 
as well as in other areas, is to engage a broad-based set of 
stakeholders in a collective impact partnership to transform 
the teaching and learning in the whole school.
    We believe that these approaches that we are taking in both 
cases will lead to systemic and lasting change and improvements 
in student success and that the ESEA really must support this 
kind of activity through supporting continuing improvement in 
the teacher education and the role of the universities and 
working with school districts and other community partners on 
these important issues.
    Thank you very much.
    [The prepared statement of Dr. Koch follows:]
                 Prepared Statement of Roy Koch, Ph.D.
    Senator Merkley, and members of the HELP Committee, thank you for 
the opportunity to submit this testimony. For the record, my name is 
Roy Koch, provost and vice president for Academic Affairs at Portland 
State University. It is my pleasure to provide some comments and 
suggestions on behalf of Portland State University and President Wim 
Wiewel regarding some significant challenges we see related to student 
success in the Pre-K-20 educational continuum, with a particular focus 
on K-12 and STEM education, and some of our activities, as an 
institution of higher education, in working with our community partners 
to address those challenges.
    We all recognize the important role that education plays in the 
success of both individuals and the society in which we live. Our 
continuing progress as a democracy and our economic prosperity depend 
on a well-educated citizenry. Unfortunately, the United State has 
fallen behind many other countries in our educational attainment and we 
must increase both our efforts and our success in this area if we are 
to remain in a position of global leadership. Universities like 
Portland State can and do play a key role in this effort. My remarks 
today will focus on how Universities, working with community partners 
including school districts and many other business, civic and social 
service organizations, can contribute to greater student success in the 
K-12 system and better preparation for and therefore greater success in 
higher education.
    As Universities, we can (and many, including Portland State, do) 
contribute to the improvement of student success in the Pre-K-12 system 
in several important ways including:

    <bullet> The preparation and continuing support of teachers.
    <bullet> Leading and participating in research to improve 
educational practices and student success both in the classroom and the 
community--in most cases working collaboratively with community 
partners, and
    <bullet> Various service programs that directly impact K-12 
students either through programs we support as a part of our 
educational mission through such programs as our senior capstone.

    Portland State is deeply involved in all of these activities and we 
have integrated them into an institutional initiative we call SUCCESS--
Schools, University and Community Committed to Educational Success for 
all Students.
    Today, I would like to focus on two key approaches that we believe 
will lead to increased student success and illustrate them by 
highlighting our work at Portland State. Some of these activities are 
well underway and others are still in the developmental stage.
    We believe that effective approaches to addressing student success 
in the entire educational continuum have two important characteristics:

    <bullet> They are collaborative. For this work to be effective and 
to address the most important problems, it is essential that the 
University work with the schools districts. But it also requires a more 
holistic approach--engaging the entire community in identifying the 
important issues that need to be addressed in promoting student 
success. This approach recognizes that the success of the student 
depends both on what happens in the classroom as well as the 
environment that exists in the home and the community. It also 
recognizes that there are many organizations that can make 
contributions to improving student success and that a coordinated 
effort will be much more effective. The ESEA should promote this 
collaborative approach to identifying and solving problems related to 
improving student success.
    <bullet> There is an ongoing evaluation and assessment process. It 
is not sufficient to undertake programs aimed at improving student 
success, it is necessary to continuously and rigorously evaluate those 
programs in light of the educational and related outcomes that 
represent student success.

    I can provide just two examples where we are approaching the issue 
of Pre-K-20 student success using these two criteria.
    Cradle to Career. In Portland and Multnomah County, we are 
implementing the STRIVE model as one of several demonstration sites 
around the country. STRIVE was created at the University of Cincinnati 
and is a partnership connecting the education, business, nonprofit, 
civic, and philanthropic and community sectors in an effort to help 
every child achieve educational success from cradle to career. This is 
a real example of the commitment to the idea that academic success 
depends on attention throughout the development of the student and 
occurs both inside the classroom and in the community. This effort is a 
real collaboration of government (the city of Portland and Multnomah 
County), the school districts, non-profits and Portland State. This 
organization has taken on the role of coordination of efforts, 
convening various community partners and school districts around 
important issues, and reporting on progress through the ``Report Card'' 
that tracks progress on many important indicators of Student success. 
Portland State's role in this is related to the research--that is, the 
collection and synthesis of data that goes into the report. We also 
played a key role in bringing the model to the community, convening 
discussions helping bring together the coalition that lead to the 
formation of the Cradle to Career initiative. With this coalition in 
place and with an effective tool to measure progress, it is now 
incumbent on the entire community to work toward identifying where our 
greatest efforts are required.
    STEM Education. A major challenge over the last decade or more has 
been the challenge of attracting the best and brightest students into 
the STEM fields--both as practicing engineers and scientists and also 
as teachers in the STEM disciplines. A particular aspect of this issue 
that has received considerable attention is that our current STEM 
majors do not reflect the diversity of our society and, with our 
changing demographic, this presents an even greater challenge in 
meeting the need for trained professionals in the future. At Portland 
State, we have a number of programs to promote and support 
participation in the STEM disciplines, some with a particular emphasis 
on expanding participation from underrepresented groups. For example, 
we participate in the Association of Public and Land-grant Universities 
(APLU) Science and Mathematics Teacher Imperative (SMTI) aimed at 
expanding the number of science students who move on to K-12 teaching 
careers and the Lewis Stokes Alliance for Minority Participation, and 
NSF supported project that helps create resources aimed at increasing 
the participation and success of STEM students from underrepresented 
groups. However, these programs only work if there are an adequate 
number of properly prepared and motivated students coming to us from 
the K-12 system--and that is not the case.
    Our most ambitious project to address the issue of both improving 
STEM education in the K-12 and increasing the numbers of student who 
are college-ready and motivated to pursue STEM majors and eventually 
careers as scientists, mathematicians and engineers is the development 
of a network of STEM education centers. This, again, is a broad-based, 
collaborative effort involving most of the Portland metropolitan 
regional school districts, Portland State, OHSU and other higher 
education institutions and a number of corporations who are supportive 
of this work, will benefit from the outcomes and are willing to provide 
leadership and assist in identifying support.
    Briefly, in undertaking this approach we assert that the most 
effective way to improve student achievement STEM is to engage a broad-
based set of stakeholders in a collective impact partnership to 
transform the teaching and learning cultures in whole schools. The goal 
of the partnership is to build pathways for students to matriculate 
through K-12 schools on a college and career readiness trajectory. The 
collective impact partnership should include long-term and sustainable 
participation by the school district's administrative leadership, 
higher education STEM and school of education faculty, local 
businesses, community groups and informal STEM education providers.
    Patterned after similar work in other States, the regionally 
located STEM Education Centers would support this transformation 
initiative. The STEM Centers would serve as research and development 
hubs having the capacity to provide centralized teacher professional 
development and partnership development programming. The STEM Center 
would be the location for compiling improvement research data and 
generating and disseminating reports and publications from the work of 
the networked improvement communities. The Center would also provide 
regional student, teacher and administrator programming for targeted 
investments in STEM education (science fair competitions, summer and 
afterschool enrichment programming, K-12 teacher development workshops, 
principal and administrator workshops).
    The regionally based STEM Education Centers would in turn be 
networked through the governor's office to establish a statewide STEM 
education initiative. A governor appointed STEM Education Investment 
Board would oversee the function and productivity of the statewide STEM 
education initiative.
    These are two examples of how Portland State is working in 
collaboration with a number of community partners to address the 
important issues of education from Cradle to Career. We believe that 
the approach we are taking in both cases will lead to systemic and 
lasting change and improvement in student success and that the ESEA 
should support this kind of activity--through supporting continuing 
improvement in teacher education and the role of Universities in 
working with school districts and other community partners on these 
important issues.

    Senator Merkley. Thank you.
    And if I caught your comments correctly, you are making 
particular note of the fact that we don't have enough folks and 
enough ethnic groups involved in the STEM world. And you are 
particularly focused on trying to expand that.
    Can you expand just a little bit--you mentioned the STEM 
education centers, how does that work?
    Dr. Koch. The STEM education center would be a center that 
is directly connected to a series of schools and would support 
what we like to call the transformation of STEM education 
within an entire school building. So working systemically with 
all the grades in that building and paying particular attention 
to the fact that all students are able to move forward and be 
motivated and capable in the STEM fields.
    Senator Merkley. OK. So that center isn't part of how we 
develop more STEM teachers. It is part of putting those 
teachers into the field. And where are those right now?
    Dr. Koch. The one that we are beginning to develop, the 
earliest one, will be in Washington County. Although it works 
with all of the school districts in the Portland metropolitan 
region, it will focus on Beaverton and Hillsboro as a test 
site.
    Senator Merkley. OK, thank you.
    I have a feeling there are some other school districts here 
that are ready to sign up.
    Dr. Koch. We do have a lot of local school districts 
partnering on this project.
    Senator Merkley. Ms. Anderson.

STATEMENT OF MORGAN ANDERSON, NORTHWEST REGION HIGHER EDUCATION 
      AND GOVERNMENT AFFAIRS MANAGER, INTEL, HILLSBORO, OR

    Ms. Anderson. Thank you, Senator.
    We have a saying at Intel. ``Innovation starts with 
education.'' Oregon is home to Intel's R&D center, as you know, 
and we are currently constructing a new fab that will become 
our most advanced microprocessor manufacturing facility, called 
D1X.
    Oregon is Intel's largest and most complex site. We employ 
16,000 people in Oregon, making us the largest private employer 
in the State. And 2,000 of these employees hold a Ph.D. Yet we 
struggle to find these engineers not only in Oregon, but in the 
United States. We are not alone.
    Change the Equation, a nonprofit organization made up of 
110 CEOs, is equally concerned about STEM education in the 
United States. This organization is chaired by retired Intel 
CEO and chairman of the board Craig Barrett. And the Change the 
Equation has recently issued STEM vital signs for each State. 
The data that they issued is dire.
    In Oregon, only 37 percent of Oregon fourth graders were 
proficient at the National Assessment of Educational Progress, 
or NAEP. Science scores were even lower for Oregon's fourth 
graders, with only 34 percent being rated as proficient. Their 
eighth grade counterparts scored very similar scores, and 
Oregon's numbers, unfortunately, were reflective of the U.S. 
average.
    Fortunately, Oregon has joined with 41 other States in the 
Common Core movement, and we are raising expectations for 
student proficiency this school year. But there are other 
recommendations that Change the Equation made. They urged that 
Oregon focus on student achievement gaps and increasing 
teachers' content knowledge. And one point was that fewer than 
half of Oregon's eighth graders have a teacher with either a 
major or a minor in mathematics. So we are really struggling 
with finding those qualified teachers.
    Intel's involvement in education is longstanding. We 
believe that students deserve the skills needed to become the 
next generation of innovators. We have invested over $1 billion 
in the last decade to improve education, and we are actively 
involved in programs and advocacy to improve education and 
advance innovation.
    We have two science competitions that we are quite proud 
of--the Intel International Science and Engineering Fair, which 
brings together 1,500 students from across the globe, and then 
we also support and sponsor the Intel Science Talent Search, 
which is America's oldest pre-college science competition. And 
the alumni of this program have made extraordinary 
contributions to science, including seven Nobel Prizes and 
three National Medals of Science. So very impressive alumni.
    We also sponsor many local Oregon STEM programs, including 
the State science fair, housed at Portland State and managed by 
Portland State, the State-wide Lego robotics tournament, and 
also the STEM center that Dr. Roy Koch mentioned in his 
testimony. And I think these programs reflect just the nature 
of how important both inside and outside education programs are 
and that we need to have flexibility in ESEA in order to have 
full, strong education and STEM programs inside school and 
outside school.
    Many of today's educational goals and requirements can be 
most effectively achieved by modernizing our educational 
practices and systems through technology. We embrace this 
vision and urge Congress and the Administration to make it a 
reality by including it within the ESEA reauthorization 
legislation as a separate direct-funded program, focused on 
improving education through technology.
    ATTAIN, or Achievement Through Technology and Integration, 
would do this, and it would drive innovation and systemic 
reform that leverages 21st century technologies, target low-
performing schools, and assure students attain technological 
literacy by the eighth grade.
    Second, we support meaningful and measurable infusion of 
technology and related professional development throughout all 
major ESEA programs, based on the recognition that technology 
will be the platform of choice for school reform and 
improvement efforts in the 21st century.
    The future of Oregon and the U.S. depends on its ability to 
boost student performance in STEM so that our students are 
college- and career-ready and prepared to compete in the very 
competitive 21st century workforce. We ask that the 
reauthorization of ESEA includes additional support for STEM 
education and encourages technology to be based as a catalyst 
to improve education.
    Thank you so much.
    [The prepared statement of Ms. Anderson follows:]
                 Prepared Statement of Morgan Anderson
    Thank you for this opportunity to testify on the reauthorization of 
the Elementary and Secondary Education Act. My name is Morgan Anderson 
and I am the Northwest Region Higher Education and Government Affairs 
Manager for Intel. I've worked on education programs and policies for 
the last 12 years to improve education and student achievement, 
particularly in the area of STEM. We have a saying at Intel, Innovation 
Starts with Education. Oregon is home to Intel's R&D Center as 
President Obama discovered during his visit to our campus in February. 
In addition to housing two fabs and currently constructing a new fab 
that will become our most advanced microprocessor manufacturing 
facility, Oregon is Intel's largest and most complex site. We employ 
16,000 people in Oregon, with 2,000 of these employees holding a Ph.D. 
Yet we struggle to find these engineers, not only in Oregon, but in the 
United States.
    We're not alone. Change the Equation is a non-profit organization 
that is made up of 110 CEOS that are equally concerned about STEM 
education in the United States chaired by retired Intel CEO and 
chairman of the board, Craig Barrett, Change the Equation has recently 
issued STEM Vital Signs for each State. The data is dire. In Oregon, 
only 37 percent of Oregon fourth graders were proficient on the 
National Assessment of Education Progress (NAEP), which sets a 
consistent bar for student performance across the States and tracks 
international assessments. That is far less than the 77 percent of the 
State's fourth graders who scored proficient on the Oregon State test. 
Science scores were even lower for Oregon's fourth graders, with only 
34 percent being rated as proficient. Their eighth grade counterparts 
scored very similar scores, with 37 percent rated as proficient in math 
and 35 percent in science. These numbers are very similar to the U.S. 
average. Even the top 3 States, while better, only see a range of 42-56 
percent of their students' proficient in these subjects. Fortunately, 
Oregon has joined 41 other States in the Common Core movement and has 
raised expectations for student proficiency for this school year. 
Change the Equation also urges Oregon to focus on student achievement 
gaps and increasing teachers' content knowledge. Fewer than half of 
Oregon's eighth graders have a teacher with a major or minor in math.
    Intel's involvement in education is long-standing, and we believe 
that students deserve the skills needed to become the next generation 
of innovators. Intel has invested over $1 billion to education over the 
last decade and we are actively involved in programs and advocacy to 
improve education and advance innovation. To help inspire the next 
generation of scientists and engineers, Intel sponsors two major 
science competitions. The Intel International Science and Engineering 
Fair (Intel ISEF) is the world's largest pre-college science 
competition and brings together over 1,500 young scientists from more 
than 50 countries. The Intel Science Talent Search is America's oldest 
and most prestigious pre-college science competition. Alumni of Intel 
STS have made extraordinary contributions to science including seven 
Nobel Prizes and three National Medals of Science. We also sponsor many 
Oregon STEM programs, including the State science fair and the 
statewide Lego Robotics Tournament. These enrichment programs work. One 
program we sponsor, Oregon MESA, boasts a graduation rate of over 95 
percent with the vast majority of their students pursuing college. 
Because this program primarily works with under-
represented minorities, these statistics show that targeted programs 
can help close the achievement gap.
    Intel fully supports the goals of creating a STEM Master Teacher 
Corps, including increasing student engagement in STEM, recruiting, 
training and supporting highly qualified and highly effective teachers 
and closing student achievement gaps. All of these endeavors will help 
prepare more students to be on track for college success and career 
readiness. The specific areas that this legislation would fund are 
aligned with policies and practices that have been proven to be highly 
effective, including providing funding for mentoring new teachers in 
STEM content areas, and providing professional development on effective 
STEM teaching methods. At Intel we understand the importance of 
investing in teachers and we have trained over 10 million on our Intel 
Teach Program, with 500,000 teachers trained in the United States to 
help build 21st century skills such as digital literacy, critical 
thinking and problem solving. With the success Intel has witnessed with 
science competitions, we are pleased that funding can support STEM-
related competitions and hope that science competitions as well as 
robotics will be highlighted as examples.
    Many of today's educational goals and requirements can be most 
effectively achieved by modernizing our educational practices and 
systems through technology. In a statement accompanying the release of 
his fiscal year 2011 Budget proposal, President Obama asserted that he 
``. . . strongly believes that technology, when used creatively and 
effectively, can transform education and training in the same way that 
it has transformed the private sector.''
    We embrace this vision and urge Congress and the Administration to 
make it a reality by including it within the ESEA reauthorization 
legislation as a separate, directed funding program focused on 
improving education through technology. ATTAIN, or Achievement Through 
Technology and Innovation, would ensure that teachers receive 
appropriate professional development on technology integration, 
educational agencies would have leadership capacity around technology 
and there would be equity in the distribution of resources. In 
addition, ATTAIN would drive innovation and systemic reform that 
leverages 21st century technologies, target low-performing schools and 
ensure students attain technological literacy by the eighth grade.
    Secondly, we support meaningful and measurable infusion of 
technology and related professional development throughout all major 
ESEA programs, based on the recognition that technology will become the 
platform and infrastructure of choice for school reform and improvement 
efforts in the 21st century. Technology infusion should make technology 
a priority throughout the new ESEA with language reflecting mandatory 
technology spending. Enterprises in other sectors of our economy 
dedicate an average of 5 percent of their budgets for technology and 
related staff training and support, and ESEA should help lead our 
educational agencies toward this best practice.
    The future of not only Oregon, but the United States depends on its 
ability to boost student performance in STEM so that our students will 
be college- and career-ready, and prepared to succeed in the 
competitive 21st century workforce. We ask the reauthorization of ESEA 
includes additional support for STEM and encourages technology to be 
used as a catalyst to improve education. Thank you.

    Senator Merkley. Thank you very much.
    One of the things you mentioned was the shortage of math 
teachers.
    Ms. Anderson. Yes.
    Senator Merkley. The President, in his State of the Union, 
talked about training 100,000 new teachers for science and 
mathematics. Meanwhile, however, let us say someone is coming 
out with a degree in mathematics right now. Could they get a 
job as a math teacher in Oregon, or has the drop in funding 
meant that they couldn't find a job as a teacher even if they 
had those skills right now?
    Ms. Anderson. Yes. It is a struggle. And we know that all 
of our school districts have enormous budget cuts. I have 
served on the Graduate School of Education Board at Portland 
State, and they have a special program for math and science 
teachers. And they do struggle right now to place those 
teachers.
    And the hope is, that when the economy turns around, those 
jobs will be waiting. We know we have a huge need for those 
teachers, and it is just matching the need with the money that 
is available, unfortunately.
    Senator Merkley. So not only are they not being hired 
because of the budget, but there is also competition among 
employers. If you are capable in math, there is a pretty 
substantial demand in the economy, and how much of a challenge 
is that? Intel is going to hire away a lot of folks who might 
otherwise be math teachers.
    Ms. Anderson. I am proud to say that we have a program at 
Intel that pays for our engineers to go back to school to 
become math and science teachers. So we are trying to get more 
educated and qualified folks in the classroom, helping to 
educate our next generation of kids.
    Senator Merkley. Thank you very much.
    And now we will turn to a mathematics teacher, Melinda 
Knapp. It is great to have you with us. And again, Melinda 
Knapp is the recipient of the Presidential Award for Excellence 
in Mathematics and Science Teaching and has come over the 
mountains from Bend.
    Thank you.

   STATEMENT OF MELINDA KNAPP, MATHEMATICS TEACHER, BEND, OR

    Ms. Knapp. Thank you for having me.
    I am actually a second-career math teacher. I studied 
engineering in my first life. So I am one of those people.
    I am a math teacher at Sky View Middle School in Bend, OR. 
And Bend-LaPine Schools is the seventh largest district in the 
State of Oregon. It has nearly 16,000 students who attend 
there, and the Central Oregon District spans more than 1,600 
square miles. That is a 40-by-40 square. So we are pretty big. 
And many of the parts of our district are very rural.
    I have been lucky enough to teach math for 7 years at Sky 
View Middle School and had the pleasure of teaching many hard-
working students over the years. I am also fortunate to work 
with many dedicated professionals who share my love of teaching 
and learning.
    This past May, I had the opportunity to spend a week in 
Washington, DC, with the 85 winners of the presidential award. 
These were all highly competent, highly effective teachers who 
work tirelessly to improve themselves to ensure they are the 
best math and science teachers they can be.
    As awardees, we are tasked to serve as models for our 
colleagues, inspire our students and communities, and be 
leaders in the improvement of math and science education, and I 
take this task very seriously. I have the utmost respect for 
these teachers, who collectively have a wealth of experience 
and face many challenges.
    As I spoke with the teachers from the different States, 
some common themes emerged. I had many discussions related to 
what high-quality teaching should look and sound like. We spoke 
about the need for intensive, ongoing professional development 
and the need for more support from school and district 
leadership.
    Another common idea was the frustration over the 
overemphasis on high-stakes testing and how it was narrowing 
the curriculum. All week long, we visited scientists and 
leaders from many agencies, including NASA, NSF, EPA, and each 
person stressed the importance of STEM education for our 
students' future. They each described how a teacher had 
inspired them and cultivated their love of science and math as 
they were growing up.
    This message echoed much of what I was hearing from the 85 
teachers that week. It reminded me of the importance of a 
highly effective, inspired teaching workforce, particularly in 
the fields of math and science, and not just at secondary 
level, but also elementary level.
    Because I am a classroom teacher, my perspective is 
grounded in my day-to-day interactions with my middle school 
students and colleagues I work with. We see the impact of 
decisions that are made at national, State, and district level. 
When I say ``we,'' I mean teachers and students. We are 
impacted directly when funding is cut, days are cut, and we are 
constantly overwhelmed by initiative after initiative.
    My work over the past 5 years has focused on mathematics, 
professional development, and my leadership development 
necessary to move quality teaching and learning forward. My 
concentration on this work resulted from my own transformation 
about teaching and learning that allowed me to better 
understand the types of learning experiences we need for our 
students.
    Because of my own experiences, I began to change my 
teaching practices. I now have the opportunity to collaborate 
and coach other teachers to facilitate improvement of their 
teaching practices. Here are some things that you might see and 
hear in an effective inquiry-based mathematics classroom.
    Highly engaged students working in collaborative groups. 
Students asking why. Students talking in groups or during whole 
class discussions about their understanding or struggles with a 
particular concept or task or connection.
    Students providing justifications about why their ideas 
work mathematically. Students generalizing their math ideas to 
other areas. Students applying mathematical concepts in real-
life applications and problem-solving. Students of all levels 
of success contributing to the learning of all. Students making 
sense of math as mathematicians might. With sense-making comes 
deep understanding.
    I have seen firsthand the difference a highly effective 
teacher with broad understanding of their content in an 
inquiry-based classroom can make for students. Students in 
these classrooms are more excited and engaged in their own 
learning. They understand more deeply and can apply their new 
knowledge in novel situations. They are true problem-solvers.
    This is what our students need. This is what we need to do 
as leaders to help shape the problem-solvers of the future. 
This type of learning takes highly trained teachers.
    So I would recommend a few things, just in closing. We 
should provide quality, sustained professional development 
experiences for all K through 12 science and mathematics 
teachers that will increase and deepen content knowledge, 
provide a variety of pedagogical approaches, and develop 
questioning strategies, which will advance higher order 
thinking of our students.
    We should encourage leadership that supports teachers, 
improving their effectiveness as teachers in STEM fields. We 
should encourage higher education leaders to strengthen their K 
through 8 teacher education program to provide a deeper 
understanding of the content knowledge necessary to teach in 
STEM fields and apply this learning in real-world applications.
    And last, we should invest in research on teaching and 
learning that will better inform development of science and 
math curricula and highly effective teaching approaches.
    Thank you.
    Senator Merkley. Thank you very much.
    I wanted to get some sense. I loved math, and it could have 
been taught in any form, and I would have loved it. But the 
form was very different than what you were describing.
    Ms. Knapp. Very different.
    Senator Merkley. I recall the teacher saying now here is 
the formula for cosine, and it is this angle to these sides. 
And, OK, here are 20 problems for your homework.
    Now what you are describing sounds very different. And so, 
how do you make it work? Do you start out with a real-life 
problem on a wind turbine?
    Ms. Knapp. That is often how it starts, but that hooks or 
engages the kids. Because when it is real, they are interested. 
And the types of learning that I am talking about require all 
kids to be engaged in their own learning.
    There is no sitting back. It is not passive. It is active. 
And in that, they develop deeper understandings of math. They 
can see the connections to other content areas, and they are 
just more interested. And it is doing math versus watching 
someone do math and then regurgitating that. It is really 
making their own understandings for themselves.
    Senator Merkley. So what is it that kind of catches your 
students' imagination in the sense that it is relevant and not 
just some dry thing that they will ``never use?''
    Ms. Knapp. I think what hooks kids a lot--I teach middle 
schoolers. They are very social, and this type of learning is 
very social. They learn from each other, through each other. I 
learn from them. They learn from me.
    And I think just that social nature of the mathematics and 
that we are actually solving a real problem. It is very 
engaging for students and the fact that we are all doing this 
together. I find that that really hooks kids in a subject that 
is not often their favorite.
    Senator Merkley. How did you make the choice to--you were a 
trained engineer, and you chose to go into teaching. What 
inspired you to make that transition?
    Ms. Knapp. That is kind of a long story. But in a sense, I 
felt like I needed to be in a more helping profession, and I 
felt like I could take my skills that I had studied in college 
and apply it in a different way that was more meaningful for 
me.
    Senator Merkley. You have clearly done so in a very 
effective manner, and thank you.
    Ms. Knapp. Thank you.
    Senator Merkley. Next we turn to Nathan Fuller, who is a 
student. He will be a senior at Cleveland High School and has 
been very involved in the FIRST Robotics program. I had a 
chance to see some of the work that the Cleveland students were 
doing on the Pigmice team, and we have some of the work behind 
us here.
    Are these robots going to run here now and perform for us?
    Mr. Fuller. I think all their drivers are back there.
    [Laughter.]

  STATEMENT OF NATHAN FULLER, STUDENT, SENIOR, CLEVELAND HIGH 
                      SCHOOL, PORTLAND, OR

    Mr. Fuller. First, Senator, I would like to thank you for 
giving me the opportunity to speak to this committee today.
    And in my 12 years of schooling, I have been to 7 different 
schools. I consider myself to have a pretty good understanding 
of the way our school system works. But sometimes I feel like 
our school system doesn't understand me.
    I wanted to come here today for a number of reasons, but 
primarily because school is hard. School is hard not because 
you have a bunch of students who don't want to try. It is not 
hard because you have a bunch of students who aren't very 
intelligent. School is hard because students want to be 
inspired. They want to understand why they are learning what 
they are learning, and they want to be involved in the process.
    My generation is that of the joystick generation. We are 
the Facebook generation. We are a generation that was born with 
technology in our minds, body, and soul. But our current form 
of education feels that the best way to involve technology is a 
document camera to replace a projector.
    As Ms. Harms said, we need teachers to be taught how to use 
our technology, not just receiving technology grants and then 
discarding it. My sophomore year math teacher taught with a 
SMART Board behind a projector screen because he didn't have 
the technology and experience to actually use the technology he 
was given.
    But there was something that keeps me involved, and that 
something has been FIRST Robotics. FIRST Robotics, or For 
Inspiration and Recognition of Science and Technology, is a 
program that was founded by the inventor, Dean Kamen. He 
invented the Segway.
    We now offer four programs for kids from the ages of 
kindergarten to essentially the year they graduate from high 
school, the opportunity to work with industry professionals and 
engage in real application of STEM principles. After I joined 
FIRST Robotics, suddenly everything in school could be applied. 
I had an opportunity to look at physics and math classes like 
they were real. All of a sudden, learning projectile motion 
matter because I needed to learn how to kick a soccer ball into 
a goal that was 30 feet away.
    I kept my grades up because I knew that I wanted to be an 
engineer or industrial designer when I grew up. And another 
thing is that students have something to stay in school for. We 
are a team. We are a family.
    I believe that Mr. Hopson talked about a safety net. A 
FIRST Robotics team can be that safety net for a team and for 
an individual. I have multiple students who have helped other 
students with English papers, with math problems. We are all 
there together to provide an opportunity to compete, and if 
your grades aren't up, you can't compete. So we all work 
together to pull everyone else through their high school 
experience.
    I think this is something that is really powerful and 
something that you can only really see on a FIRST Robotics 
team.
    I also would like to talk about what FIRST represents. We 
already talked about how it is an application, not just a 
teaching of STEM principles. But it is also a chance for 
students to meet well-educated adults who know exactly what 
they are talking about.
    One thing that I think we don't see enough of in schools is 
industry involvement. There are a lot of industries out there, 
for example, I know Intel has already made a huge contribution. 
I, in fact, competed at multiple Intel FIRST Lego League 
regionals.
    But another thing that we need to think about is I am an 
example of industry involvement. I am currently an intern at 
Autodesk, which is an industry leader in three-dimensional CAD 
software, or computer-aided design. I am there managing a 
number of other FIRST Robotics interns. And they are another 
example of how industry wants to get involved in creating 
professionals who are ready to work for them.
    A great thing is that whenever you hear FIRST Robotics 
students talking about their experiences, they all want to work 
for their mentors. My favorite story of this is about a girl on 
my team who I have known for 4 years now. Her name is Emily 
Klockner. She is a beautiful, smart individual who worked for 3 
years with a Boeing machinist.
    She is currently enrolled in their tech prep program and 
plans to be a machinist for the Boeing Company. She found this 
goal through her involvement with the FIRST Robotics team.
    FIRST is the kind of program that can give kids a direction 
and direct them into these STEM careers in a way that not many 
other things can. I want to emphasize that our teachers are 
doing an amazing job in teaching us content. But it is 
afterschool programs and other things that are going to give us 
the opportunity to truly apply those things in a competitive or 
just celebrated setting.
    We need to celebrate students for their knowledge, not 
label them as geeks or nerds. This is what FIRST is all about. 
We create an atmosphere where kids are rock stars for knowing 
what a friction coefficient is. We need to create this kind of 
environment in our schools and especially in our afterschool 
programs.
    Thank you so much.
    [The prepared statement of Mr. Fuller follows:]

                  Prepared Statement of Nathan Fuller
Senator Jeff Merkley,
121 SW Salmon Street, Suite 1400,
Portland, OR 97204.

    Dear Senator Merkley: Thank you for the opportunity to voice my 
appreciation for all that you are doing, as you, your colleagues, and 
staff, work to reauthorize the Elementary and Secondary Education Act 
(ESEA). As a High School Student, who participates in the FIRST (For 
Inspiration and Recognition of Science and Technology) Robotics 
Competition, I know just how much STEM (Science, Technology, 
Engineering and Mathematics) principles and education can help you to 
succeed. I also know that it has become increasingly difficult for 
students to get experience in these fields as funding becomes ever more 
scarce.
    Personally, I have gained and learned much through my experience in 
the FIRST program, and have come to care about not just my team but the 
organization as a whole as if it were my family. When revising the 
ESEA, it is important to remember that not only are students a 
priority, but teachers need training and stipends for working after 
hours with students. To truly excel in STEM pathways students need to 
be led by experienced individuals who have the knowledge and skills 
required to not only teach but impress them. Working as an intern at 
Autodesk, Inc. this summer, I have witnessed the premium that industry 
is placing on students with STEM experience, and our schools need to 
reflect that.
    The modern day class is taught to a test and a white board and 
PowerPoint dominate the stage. Only those of us who have had the 
opportunity and the time to participate in afterschool activities that 
give us an application for the subject matter are able get excited when 
traction coefficients are discussed. Only a FIRST robotics student can 
take the electrical lessons of a Physics One class and make them 
relevant to his afterschool activities. This is why I participate in 
FIRST, because if I did not I am unsure whether I could make it to 
graduation.
    But not everyone dreams of being an engineer, we live in a world 
where you either go to college or are told that you have failed. The 
average age of the American Machinist is approaching 60 years of age, 
if we want to succeed in maintaining ourselves as the idea center of 
the world, we will need people to make those ideas. We need to stop 
failing students who dream of working on the parts of a 747, or welding 
bike frames. College is not for everyone, in fact for some it can be 
the ending of a brilliant future. We do not need to bring back the old 
shop classes of book shelves and table, but what we need is the modern 
shop class of welders, robots, and electric vehicles. This is our 
future, and this is why STEM matters.

            Sincerely,
                                             Nathan Fuller,
                                               Age 17-Team Captain,
                                     FRC Team#2733 ``The Pigmice''.
                                 ______
                                 
    Senator Merkley. Nathan, thank you. And superb 
presentation.
    How many schools in the Portland area actually have a FIRST 
Robotics team?
    Mr. Fuller. I believe we are around 12. In Portland or in 
the Oregon area?
    Senator Merkley. In the Portland area.
    Mr. Fuller. In the Portland area, I think we are around----
    Female Speaker. [Off-mike.]
    Mr. Fuller. Yes, we have helped 40 robotics teams, but the 
high school teams, again, it is a huge financial strain. And 
currently, my team operates--we fundraised $25,000 last year. 
We had no Federal or district money. It was all from industry 
grants and donations.
    So, right now, we are running completely without the 
support of the school system, but I think that through a 
partnership you could see an incredible transformation of the 
robotics team giving back.
    One of my favorite examples is I have a student on my team 
who is actually hosting a Lego robotics camp for the Somali 
refugees that attend Cleveland High School in the lower-income 
housing across the street from the school.
    Senator Merkley. That is fantastic.
    And I believe that David Douglas is about to get a FIRST 
Robotics team? And is Boeing the main partner in that? So that 
is great. That will be this coming school year?
    Mr. Grotting. We are in development right now. So we are 
going to try to get it up and going.
    Senator Merkley. I think you have made the case that what 
happens outside of the classroom is as much a part of the 
education process as inside the classroom. And there is a 
challenge of resources. As you noted, your team is doing 
extraordinary work to raise $25,000 a year, did you say? That 
is a lot.
    Mr. Fuller. It is a lot of money.
    Senator Merkley. It is a lot of money. Plus, in addition, 
all kinds of industry connections and contributions as well. So 
funding cash is part of the puzzle, but there is a lot more to 
it as well.
    Thank you.
    Mr. Fuller. Thank you.
    Senator Merkley. Speaking of being outside the classroom, 
Nancy Stueber, president of Oregon Museum of Science and 
Industry, we would love to hear your thoughts.

STATEMENT OF NANCY STUEBER, PRESIDENT, OREGON MUSEUM OF SCIENCE 
                   AND INDUSTRY, PORTLAND, OR

    Ms. Stueber. Thank you, Senator Merkley. Thank you for 
holding this field hearing and inviting me to testify.
    I am here both as the president of OMSI, Oregon Museum of 
Science and Industry and a science center located here in 
Portland, but with a region-wide reach, and also as the 
president of the Association of Science Technology Centers, and 
that represents 440 science centers and museums worldwide, 7 
here in Oregon, who are committed to excellence in science 
learning and innovation.
    I wanted today to focus my brief remarks on one aspect that 
is often overlooked of what science centers and museums can 
provide. Many people think of field trips and lots of other 
opportunities for joyful learning experiences, but we also 
provide teacher professional development opportunities, and I 
focus on that today because of its relevance to your work now 
and because teachers are the most powerful ingredient in 
contributing to student success.
    We all know that educating must encompass a wide range of 
support services, and teachers already look to out-of-school 
partners and science centers and museums. I can say that among 
our association members, we have 73,000 schools that we work 
with directly nationwide. That is 62 percent of the total 
schools in the country, and it represents 36 million students 
and 2 million teachers, about half of those schools serving a 
high percentage of underserved students.
    So we are powerful allies in this work, and we believe that 
we have a lot to offer, both for helping gifted teachers excel 
and for helping to remove barriers for others with limited 
experience in teaching science. So our colleagues in Chicago 
report, like many of the school districts in the Nation, that 
70 percent of the teachers teaching science in the middle 
school grades don't have a science degree or an endorsement in 
science.
    So they have responded with an Institute for Quality 
Science Teaching that offers everything from professional 
development credit to a master of science education degree, and 
they have become an integral part of a broad school and 
district-wide educational improvements plans there in Chicago.
    In Boston, our colleagues at the Museum of Science in 
Boston have developed K-12 engineering curricula that includes 
a network of teacher professional development programs that is 
available to be adapted nationwide. And that is especially 
noteworthy since Oregon has recently incorporated engineering 
into our K-12 science standards, and engineering will have a 
significant presence in the next-generation science standards.
    I am proud to say that OMSI has the largest outreach 
program of any of these colleagues nationwide. We travel to 
seven States, and we also provide both the accreditation side, 
but really grounded, hands-on experience and practical 
resources for teachers. An example is a popular workshop called 
``No Hassle Messy Science with a Wow'' that brings teachers in, 
gives them experience and confidence in lots of hands-on, 
inquiry-based activities that are aligned with standards. And 
they leave with a 460-page manual of activities that have all 
the setup instructions, all the age-appropriate explanations, 
and student handouts in English and Spanish ready to go.
    We do that not only in urban districts, but in rural 
districts. We believe that rural districts, by definition, are 
underserved, and we work with partners like Libraries of 
Eastern Oregon and in collaboration with many partners 
providing afterschool programs, whether it is the MESA program 
at Portland State or the SMILE program at Oregon State or 
programs offered by Self-Enhancement, Inc., or FIRST Robotics.
    So while we have many examples that we can point to, we 
cannot, as nonprofits, directly apply for funding through the 
current ESEA legislation, and that would be for funding for 
teacher professional development. We urge you to do all you can 
to expand the eligibility language in section 2131 of the 
existing statute to allow nonprofit organizations that have a 
proven track record of improving effectiveness of STEM teachers 
to apply directly for funding in partnership with a local 
education agency.
    Again, we really appreciate your advocacy for STEM 
education, and all of us at OMSI, our colleagues nationwide, 
and all of our nonprofit community partners stand ready to 
assist you in this very important work of incorporating STEM.
    Thank you.
    [The prepared statement of Ms. Stueber follows:]
                  Prepared Statement of Nancy Stueber
                              introduction
    Good morning, Senator Merkley. My name is Nancy Stueber, and I am 
president of the Oregon Museum of Science and Industry (OMSI), a 
scientific, educational, and cultural resource center located here in 
Portland that is dedicated to improving the public's understanding of 
science and technology. OMSI makes science exciting and relevant 
through exhibits, programs, and experiences that are presented in an 
entertaining and participatory fashion. I am also here on behalf of the 
Washington, DC-based Association of Science-Technology Centers (ASTC), 
a nonprofit organization of science centers and museums dedicated to 
furthering public engagement with science among increasingly diverse 
audiences. ASTC represents more than 440 science center and museum 
members--including 7 here in Oregon--in 42 countries, and encourages 
excellence and innovation in informal science learning by serving and 
linking its members worldwide and advancing their common goals. I serve 
as the president of the Association of Science-Technology Centers, and 
am honored to represent not only my institution, but the science center 
and museum field, before you today.
    Before I continue, allow me to express my sincere appreciation to 
you for scheduling this morning's field hearing here in Portland, and 
for the opportunity to testify before you and the committee. Even more 
importantly, I want to thank you and your staff for all of your efforts 
regarding the pending reauthorization of the Elementary and Secondary 
Education Act (ESEA) and for the leadership you have shown in 
addressing the monumentally important science, technology, engineering, 
and mathematics (STEM) education issues facing our young people--and 
our country--today.
      science centers, omsi, and teacher professional development
    I would like to begin by focusing on an often overlooked aspect of 
what science centers and museums contribute to America's educational 
infrastructure: teacher professional development opportunities. While 
school visits are often at the forefront of one's mind when they 
envision science centers--and I will address the multitude of options 
science centers provide to visitors of all ages a bit later in my 
testimony--the programs and services we provide for educators may not 
be. In fact, 82 percent of science centers offer workshops or 
institutes for teachers, aligning with research-based best practices 
and the recommendations found in Title IX, Section 9101(34) of ESEA. 
ASTC members reach 73,000 schools--62 percent of the total schools in 
the country--impacting 9,000 school districts, 36 million students, and 
2 million teachers. Almost half (44 percent) of the schools served have 
a proportionally large population of underserved students. In addition, 
75 percent of ASTC members report that they offer curriculum materials.
    Clearly, effective classroom teaching is critical to helping 
children develop the essential thinking skills they require to weigh 
evidence, solve problems, balance risks and rewards, and make sense of 
their environment. And the need for additional support for teachers is 
strong: many teachers are assigned science as a subject to teach, 
without having a lot of science background themselves. The engaging, 
hands-on, inquiry methods that science centers have proven to be 
effective can be applied to the classroom; these methods are largely 
not taught in pre-service academic training, yet are an invaluable tool 
for teachers' effectiveness and student success.
    Like science centers across the country, OMSI is doing our part to 
help teachers gain confidence, experience, and expertise when it comes 
to STEM teaching. I take great pride in the fact that OMSI has the 
largest science outreach education program in the United States. We 
offer teacher education programs and in-service workshops serving seven 
Western States; educational field trips and hands-on lab sessions in 
our eight interactive laboratories; camps and classes throughout Oregon 
and the Pacific Northwest for youth as well as families and adults; and 
community events exploring a wide range of relevant topics combining 
science, technology, engineering, mathematics, and the arts. At OMSI, 
we provide a variety of professional development tools for educators, 
from workshops and school partnerships to classroom activities and 
resources. These include:

    No Hassle Messy Science with a WOW!, where participants experience 
a workshop chock-full of affordable, inquiry-based, and standards-
aligned activities. Educators take home the 460-page manual No Hassle 
Messy Science with a WOW: Chemistry in the K-8 Classroom, which 
includes complete activity set-up instructions, scientific explanation 
for various age levels (grades K-8), extensions to broaden 
understanding, and student handouts in English and Spanish.
    Science Inquiry, where participants learn how to move beyond 
conducting science activities in their classrooms to actually engaging 
their students in scientific inquiry. In this workshop, OMSI guides 
educators through the inquiry process, provides tools to modify 
existing activities and increase their inquiry potential, and offers 
templates and outlines to help students create work samples. Activities 
are aligned to Oregon science standards for grades 2-8.
    Engineering Design, where teachers can try out some of OMSI's 
favorite design challenges and experiment with different materials as 
they explore ways to integrate the engineering design process into the 
classroom (grades 4-8). This workshop includes an introduction to LEGO 
NXT robotics and will address the new Oregon standards for engineering.
    Expedition Northwest, a curriculum designed by OMSI educators that 
provides exciting standards-based science activities for grades 4-8. 
The program focuses on how water connects landscapes, people, and 
ecosystems across the region--from glaciers to rivers to oceans; from 
ancient floods to power generation. The program includes digital labs, 
online sharing of data, and teacher message boards.
    No Hassle Messy Science with a Wow: Chemistry for the K-8 Classroom 
serves as an aid for teachers bringing chemistry to their elementary 
and middle school students. Together with the aforementioned workshop 
of the same name, it has brought science education to diverse 
audiences. Teachers, both nationally and internationally, have used 
this curriculum to inspire wonder in their students.
    In the OMSI School Ambassadors program, which is designed to make 
it easier for schools to use OMSI's resources, a school faculty member 
becomes a museum ambassador, learning all about what OMSI offers and 
how it might benefit their school. Ambassadors serve as their school's 
representative to [3] OMSI, giving us feedback on how we can better 
meet their needs. Our goal is to have an OMSI Ambassador in every 
Oregon school.
    I also want to note that in 2 weeks, OMSI will announce the 
recipients of a unique professional development and field trip 
scholarship opportunity. These scholarships--to be awarded to three 
schools in Oregon and southwest Washington--include year-long 
professional development support (minimum 30 hours per school) for 
science teachers and field trips to OMSI during the 2011-12 school 
year. The scholarship program is designed to positively impact 
students' STEM learning by deepening the connection between classroom 
instruction and museum visits, all while providing extensive access to 
OMSI resources.
    Many science centers have extensive programs or courses 
specifically designed to support the competency of classroom science 
teachers related to both content and pedagogy. These centers work 
closely with their local teachers, school districts, and universities 
to build supportive professional development programs that are designed 
to enhance the quality of a student's science education experience 
while promoting the professional development goals of the teachers and 
the practical needs of the districts.
    There are commonalities across these programs that account for 
their impact and--upon change to ESEA law to allow non-profit, 
community-based science centers to be eligible to compete for teacher 
professional development opportunities--could be replicated by dozens 
if not hundreds of other science centers across the Nation in 
partnership with their local school districts to improve the quality of 
science instruction in our K-12 schools. For example, in addition to 
providing informal science and engineering educational experiences, the 
Museum of Science, Boston has developed K-12 engineering curricula and 
a network of teacher professional development programs to deliver 
technology and engineering education across the country. This is 
especially noteworthy, as Oregon recently incorporated engineering into 
their K-12 science standards, and engineering will have a significant 
presence in the Next Generation science standards.
    Common programming elements among science centers include:

    1. Adherence to evidenced-based practices that is confirmed through 
extensive iterative evaluation.
    2. Integration of national, State and local standards when 
applicable to ensure classroom relevance and applicability.
    3. Extensive support of teacher use of human and material resources 
outside of the traditional classroom to broaden capacity to build 
student motivation and inspiration.
    4. Partnerships with institutions of higher education and/or State 
teacher certificating authorities so that program participation 
advances professional credentials, needs and goals of teacher 
workforce.
    5. Utilization of inquiry-based, hands-on activities for teacher 
use in classrooms.
    6. Reflection of national recommendations in STEM learning that can 
impact student growth and achievement.

    Educating must encompass a wide range of support services, and 
science teachers do not hesitate to reach out to science centers for 
instructional assistance. Likewise, science centers are well-positioned 
to target schools most in need of resources. They can help gifted 
educators excel, and, once again, remove barriers for others with 
limited experience teaching science. For example, in Chicago--like many 
school districts across the country--70 percent of teachers teaching 
science in the middle grades do not have a science degree or an 
endorsement in science. Responding to this need, the Chicago Museum of 
Science and Industry (MSI) provides science teacher professional 
development through its Institute for Quality Science Teaching. 
Teachers are able to obtain a Master of Science Education degree, a 
Middle School Science Endorsement, or professional development credit. 
Furthermore, science centers like MSI Chicago have become integral 
parts of broad school- and district-wide educational improvement plans 
in STEM subjects, designing coursework in accordance with topics 
identified in State standards.

                recommendations for esea reauthorization
    With valuable contributions like these in mind, I want to share 
several key recommendations regarding the Elementary and Secondary 
Education Act as you and your fellow members of the Senate Committee on 
Health, Education, Labor, and Pensions continue to work on its 
reauthorization.
    First, I urge you to do all you can to allow nonprofit informal 
education institutions (such as science centers and museums) who have a 
proven track record of providing quality teacher professional 
development programs to directly compete for title II teacher quality 
funds. Under the current ESEA, districts and States may use title II 
teacher professional development for a variety of purposes, but all too 
often, the funds don't reach non-profit education organizations--such 
as science centers--that provide teacher professional development. 
Section 2131 of the existing statute establishes outlines which 
``eligible partnerships'' are allowed to compete. Such partnerships 
must consist of an institution of higher education and a high-need 
local education agency (school district). It is only after that 
requirement is satisfied that eligible partnerships may also include 
other institutions, such as non-profit education organizations. In 
short, eligible science centers are considered as an afterthought in 
the law when they are often at the forefront of providing the 
congressionally intended activity of improving teacher quality.
    The President's fiscal year 2011 budget and the Blueprint for 
Reform of ESEA proposed a refashioning of the current Mathematics and 
Science Partnership program (Title II, Part B of ESEA). ASTC has been 
supportive of congressional iterations of this revamped language that 
would allow nonprofit organizations that improve the effectiveness of 
STEM teachers to apply directly for funding in partnership with a local 
education agency. Such eligibility language is included in both the 
STEM Master Teacher Corps Act of 2011 (S. 758), introduced by Senator 
Al Franken, and the Effective STEM Teaching and Learning Act of 2011 
(S. 463), introduced by Senator Mark Begich, and is consistent with 
that which has also been included in the Department of Education's 
Investing in Innovation (i3) program.
    We also urge you to include technology and/or engineering teachers 
alongside math and science teachers as eligible participants in all 
programs enacted to recruit, train, mentor, retain, and further educate 
K-12 teachers. After all, we live in an engineered world. Engineering 
design creates the technologies that support our health, convenience, 
communication, transportation, living environments, and entertainment; 
our entire day-to-day life. Yet, technology and engineering design are 
not part of the mainstream curriculum. In most academic environments, 
the term ``technology'' is used to describe electronic devices. Most 
people do not understand that everything human-made, other than some 
forms of art, is a type of technology. Although students spend years in 
school learning about the scientific inquiry process, the process 
scientists use to discover the natural world, they never learn the 
engineering design process, which is responsible for most of the things 
that support their day-to-day lives. Science centers are ideal places 
to help educators fully integrate STEM concepts in their classrooms.
    In addition, the science center field supports recommendations made 
by the President's Council of Advisors on Science and Technology in 
Prepare and Inspire: K-12 Education in STEM for America's Future. 
Specifically, we ask the committee to: (1) acknowledge the importance 
of educational innovation by endorsing initiatives like the Advanced 
Research Projects Agency for Education (ARPA-ED) and the aforementioned 
Investing in Innovation program, designed to stimulate the next 
generation of high quality educational experiences by new technology 
and other means for both in- and out-of-school learning environments; 
and (2) to ensure the recruitment, preparation, and induction support 
of at least 100,000 new math and science teachers over the next decade. 
We urge science center and museum eligibility in resulting teacher 
professional development opportunities and/or programs, to include both 
pre-service and in-service educators.
                    the importance of stem education
    As you are well aware, there is a strong consensus that improving 
science, technology, engineering, and mathematics education is critical 
to the Nation's economic strength and global competitiveness in the 
21st century. Reports like the National Academies' Rising Above the 
Gathering Storm (2005) and the recent offering from the President's 
Council of Advisors on Science and Technology (PCAST), entitled Prepare 
and Inspire, have emphasized the need to attract and educate the next 
generation of American scientists and innovators, and have recommended 
that we increase our talent pool by vastly improving K-12 science and 
mathematics education. Clearly, in order to improve STEM education, we 
must draw on a full range of learning opportunities and experiences, 
including those in non-school settings.
    In its report entitled Learning Science in Informal Environments: 
People Places, and Pursuits, the National Research Council (NRC) of the 
National Academies, Pursuits, said ``beyond the schoolhouse door, 
opportunities for science learning abound . . . '' The NRC found, among 
other things, that there is ample evidence to suggest that science 
learning takes place throughout the life span and across venues in non-
school settings. Furthermore, the report highlighted the role of 
afterschool STEM education in promoting diversity and broadening 
participation, finding that non-school environments can have a 
significant impact on STEM learning outcomes in historically 
underrepresented groups, and that these environments may be uniquely 
positioned to make STEM education accessible to all. Out-of-school 
programs, such as those provided by OMSI, the MESA program at Portland 
State University, the SMILE program at Oregon State University, Self 
Enhancement Inc., and 4-H, are key in reaching underserved populations 
that might not otherwise have access to STEM resources in school.
    The informal learning environment is especially important when you 
consider that, by the age of 18, a child will have spent, at most, 9 
percent of his or her lifetime in school. If a child spends about 6 
hours a day in school, for each of the 180 days of the school year, he 
or she will spend little over 1,000 hours in school in a year, not 
including homework. Science centers and museums, along with nonprofits 
providing after-school programs, can help make hands-on, experiential 
learning an essential part of the many hours that remain.
    science centers as an integral part of the nation's educational 
                             infrastructure
    Science centers are physical places where science and citizens can 
meet. Many have scientists on staff, and some feature research 
facilities on-site. Through exhibits and programming--such as lectures 
and science cafes--science centers help bring current research findings 
to the public while encouraging discussion and debate of current 
science issues. More and more, science centers are also getting members 
of the public involved in research projects themselves.
    Science centers reach a wide audience, a significant portion of 
which are school groups. Here in the United States, 90 percent offer 
school field trips, and ASTC estimates that nearly 11 million children 
attend science centers and museums as part of those groups each year. 
Field trips, however, are just the beginning of what science centers 
and museums contribute to the educational experience of students and 
teachers alike. In the United States, 90 percent offer classes and 
demonstrations, 89 percent offer school outreach programs, 71 percent 
offer programs for home-schoolers, 41 percent offer programs that 
target senior citizens, and 40 percent offer youth employment programs. 
Furthermore, more than half offer afterschool programs--especially 
noteworthy given that more than 15 million school-age children, 
including more than 1 million in grades K-5, are on their own after 
school. Research shows that kids who participate in such programs 
improved significantly in three major areas: feelings and attitudes, 
indicators of behavioral adjustment, and school performance. This 
translates, of course, to self-confidence and self-
esteem, positive social behaviors, and accomplishment in school 
settings. Again, these activities are in addition to those already 
mentioned which focus on teachers.
                               about omsi
    As you know, the Oregon Museum of Science and Industry--like 
science centers all across America and all across the world--seeks to 
inspire wonder in people of all ages by creating engaging science 
learning experiences, making those experiences available to a broad 
audience, and providing compelling ways to explore the role of science 
in our world today. Major museum components that help us achieve that 
mission include: five exhibit halls; hundreds of interactive exhibits; 
eight laboratories; and two new permanent exhibits: Science on a 
Sphere, which projects dynamic real-time data from NOAA and NASA 
satellites on a globe, and Innovation Station, which explores the human 
side of technology and innovation. OMSI also features a 305-seat, five-
story OMNIMAX Dome Theater; the Harry C. Kendall Planetarium--which is 
the largest planetarium dome in the Pacific Northwest with seating 
capacity of 200; the USS Blueback, a 219-foot diesel electric submarine 
and the most modern U.S. submarine on public display in the country; 
and a 25,000 sq. ft. exhibit-building shop.
    That shop helps feed the largest museum-based, traveling science 
exhibits program in North America. To date, OMSI has developed 45 
interactive science traveling exhibits--including world-popular 
exhibits such as Animation featuring Cartoon Network, Moneyville, Eyes 
on Earth, Brain Teasers, BUSYTOWN, and Mindbender Mansion--that have 
been featured at museums throughout North America and Europe.
                     about astc and science centers
    OMSI is a member of the aforementioned Association of Science-
Technology Centers, a nonprofit organization of science centers and 
museums dedicated to providing quality educational experiences to 
students and their families as well as furthering public engagement 
with science among increasingly diverse audiences.
    As you know, it is now more important than ever for us to do all we 
can to spark the interests of our young people in all that the STEM 
fields have to offer. For that reason, OMSI and literally hundreds of 
other community-based science centers throughout the country are 
providing unique educational programs that excite, energize, and enrich 
our understanding of science and its many applications, often in 
conjunction with--and support from--U.S. Federal agencies like the 
National Science Foundation (NSF), the National Oceanic and Atmospheric 
Administration (NOAA), the National Aeronautics and Space 
Administration (NASA), the Institute of Museum and Library Services 
(IMLS), and the Department of Education (ED), among others.
    Collectively, science centers and museums garner nearly 90 million 
visits annually worldwide. Here in the United States, visitors pass 
through science center doors nearly 63 million times to participate in 
intriguing educational science activities and explorations of 
scientific phenomena. The most recent Science and Engineering 
Indicators (2010) supports this data, finding that 59 percent of 
Americans visited a science center, museum, or similar Science centers 
come in all shapes and sizes, from large institutions in metropolitan 
areas--like my own, the Maryland Science Center in Baltimore, the 
Science Museum of Minnesota in Saint Paul, and the Museum of Science 
and Industry in Chicago--to smaller centers in somewhat less populated 
areas--ike the Science Zone in Casper, WY, the Museum of Life and 
Science in Durham, NC, and Explora in Albuquerque, NM. ASTC member 
institutions range in size from 3,000 square feet of exhibit space to 
one that has more than 200 times that--nearly 650,000 square feet.
          serving all youth--the astc youth inspired challenge
    In closing, I want to draw the committee's attention to an effort 
to further expand upon the strong educational programs offered by 
science centers and museums. To better assist the Nation's youth in 
becoming the innovative and creative thinkers needed for the 21st 
century workforce, ASTC launched a major new initiative, the Youth 
Inspired Challenge, last September. The Challenge--extended to more 
than 300 science centers in all 50 States and across the world--sets a 
3-year goal to engage thousands of youth, ages 10-19, in 2 million 
hours of science enrichment. Building on the valuable science education 
and youth employment programs ASTC members already offer, the goals of 
the Youth Inspired Challenge include: (1) increasing the STEM literacy 
of America's students; (2) expanding opportunities for STEM engagement 
of underrepresented groups, including minorities and women; and (3) 
moving America's students from the middle to the front of the pack in 
STEM achievement over the next decade. As part of the Challenge, ASTC 
and its member institutions will also collect, catalog, and share best 
practices for improving STEM literacy for all youth, and will measure 
and report success based on participation and reach of programs in 
specific audiences.
    That process has already begun. I am pleased to report that 102 
science centers representing 7 countries and 37 States--including OMSI, 
the Science Factory Children's Museum and Exploration Dome in Eugene, 
and the Science Works Hands-On Museum in Ashland--have formally 
accepted the Challenge to date. I look forward to keeping you and the 
committee abreast of these numbers--and even more importantly, our 
collective impact--as this initiative matures.
                               conclusion
    Senator Merkley, thank you once again for the opportunity to 
testify before you today. As you, your staff, and your fellow HELP 
committee members continue your efforts to reauthorize the Elementary 
and Secondary Education Act, I urge you to do all you can to recognize, 
highlight, and take advantage of the essential STEM-related 
contributions science centers and museums provide for students and 
teachers. The Oregon Museum of Science and Industry, Association of 
Science-Technology Centers, and hundreds of science centers and museums 
stand ready to assist you--and the country--in any way we can.
    I would be happy to respond to any questions or provide additional 
information as needed by you and the committee.

    Senator Merkley. Thank you very much.
    When you have the teachers come in to learn these various 
exciting activities, do they actually do them there? Do they 
actually get their own hands dirty in the process of learning 
how to create that environment, how to replicate that in the 
classroom?
    Ms. Stueber. Absolutely. We believe that learning by doing 
is very powerful. And so, the teachers do that, and they do it 
not only onsite, but we are connected through distance learning 
technology. So we are helping teachers in Halfway, OR, for 
instance, do the same activities that teachers in Portland 
might be able to do.
    Senator Merkley. When you were talking, I was thinking back 
to a friend who described one of the ways that she first became 
really interested in science, and it was when a teacher did a 
demonstration. The teacher laid down on a bed of nails and then 
had the kids split bricks on top of the teacher to understand 
force.
    I don't know if that is one of your----
    Ms. Stueber. We do that, yes.
    Senator Merkley. Do you do that? That sounds very engaging.
    Thank you so much for your leadership of OMSI and for 
OMSI's role in promoting and supporting education.
    Thank you.
    Ms. Stueber. Thank you.
    Senator Merkley. And now we turn to Beth Unverzagt. I 
apologize if I didn't get that right.
    Ms. Unverzagt. You did pretty good.
    Senator Merkley. Beth is the director of Oregon After 
School for Kids in Salem.

 STATEMENT OF BETH A. UNVERZAGT, DIRECTOR, OREGON AFTER SCHOOL 
                      FOR KIDS, SALEM, OR

    Ms. Unverzagt. Right. Actually, statewide.
    Senator Merkley. Statewide.
    Ms. Unverzagt. Statewide. So like all of the other 
speakers, I want to thank you for the opportunity to be here 
and speak today, and I am thrilled that there are so many 
people that are interested in the reauthorization and in STEM.
    Our work as the network, we are part of a national 
initiative. So there are 39 States that are developing 
statewide networks. We are funded by the C.S. Mott Foundation 
and by our Department of Education and our childcare division.
    Our mission is solely to bring people together around 
expanding and supporting and advocating for quality out-of-
school time. The network currently has 30 organizations, both 
State agencies and associations working together to improve the 
quality of afterschool for thousands of professionals that work 
in the field, and over 800 programs that offer both academic 
and enrichment opportunities for working families.
    We provide training and technical assistance for our 21st 
century grantees through the Department of Education, and in my 
written statement, you will find the framework for science that 
the Department of Education is working on and developing with 
partners. And it really speaks to the partnership piece. So I 
am not going to go over that today because it is quite lengthy. 
But I think that taking some time to look at what our 
Department of Education is working on will benefit you.
    Research has shown over the last two decades and confirms 
the impact of afterschool for children and families. We know 
what works. The research is in. It is done.
    During my 6 years as the State director, I have visited 
hundreds of programs around the State. I have had numerous 
conversations around the policy issues and the barriers to 
quality programming. I have experienced the landscape of 
afterschool.
    I have been to the most rural parts of Oregon, to the 
smallest schools, and they have inspired me because their 
dedication to the children and their communities is beyond 
belief. They are working for no money, and they are doing a 
fantastic job in caring for children.
    On the national and State and local level, there is an 
increased attention around the demand for school systems and 
afterschool and summer programs to genuinely collaborate. The 
networks are an example of this.
    We have, over the last couple of years, created Oregon 
After School Standards, core competencies for people who work 
in the field. We also had the opportunity to have a grant from 
CCSSO and NGA and have done the first-time ever landscape of 
afterschool.
    I had the opportunity to speak directly with Superintendent 
Sipe and Superintendent Grotting when we were going through 
that process. So we know. We know quite a lot about where the 
programs are and who is working in them.
    Your request today was to talk about STEM, and we see 
afterschool as the ideal setting. It provides smaller groups, 
longer time slots, and less formal environment. In looking at 
some of the research, 75 percent of the Nobel Prize winners 
echo the statement stating that their passion for science was 
first cultivated in nonschool environments.
    Another study just published by the Curry School of 
Education, the University of Virginia, speaks to something that 
I heard this morning at the roundtable, which is that--it was 
published in the Journal of Science Education, and it finds 
that sparking students' interest in science at an early age is 
more effective at steering them toward eventual careers in the 
STEM field than pushing high school students.
    I also wanted to mention that Oregon has just been chosen 
as one of five States. A survey is going to be done of all of 
the STEM within this State by Change the Equation. It is 110 
CEOs that are working together to look at science. We are 
excited that Oregon is going to be one of the five States.
    What we believe is that we are ready. Oregon can scale up 
the science programs. In my testimony, my written testimony, I 
sent a graph of the kinds of science programs and that is just 
a portion of what has been identified. And whether it is 
robotics, rocketry, designing apps for mobile devices, 
gardening, water conservation, it is there, and it exists.
    It needs to be coordinated. It needs people to learn to 
work together to accomplish these goals at school, afterschool, 
community-based organizations, and parents. We want to put some 
emphasis on the concept that expanded learning opportunities 
connected to the school day is not more school. So we really 
feel very strongly about hands-on learning and the process for 
hands-on learning.
    The challenge of the widespread adoption of STEM and 
afterschool has, like with teachers, been the professional 
development piece. Too often professional development 
opportunities are limited to just teachers. We would like to 
see it opened up and coordinated with afterschool programs 
within the schools themselves.
    It is an important step to collaboration. Program funds 
should not be tied just to innovation and research, but to 
quality design and delivery by well-trained, well-qualified 
staff.
    Existing research tells us best practices for high-quality, 
effective design and delivery of programs. Time and duration 
matter. It needs to be part of the equation.
    We also need coordination and communication between 
education providers, schools, afterschool parents. So ways in 
which to do that, we need to create opportunities that allow 
flexibility, understanding that you might have a very high-
powered 4-H club in one community. You might have SEI in 
another community. You might have a faith-based organization in 
another community. All basically trying to do the same thing, 
which is to provide those supports and opportunities for the 
children and youth in their community.
    We also believe that the most important thing for the 
reauthorization of ESEA would be to ensure that afterschool and 
summer learning opportunities remain the key funded program for 
21st century. Already our State, every State has reapplied 
through the process. Language and guidance has been rewritten 
already. We believe that we need to continue the State 
allocations, as opposed to going to competitive grants.
    We also encourage and support funding for a new title for 
science education that connects school and afterschool. 
Yesterday, your colleagues in the wonderful Federal Government 
submitted--Senator Barbara Boxer and Senator Murkowski--it was 
late yesterday--and Senator Murray from Washington introduced 
the After School for America's Children Act. It clearly 
outlines almost every single thing that we have talked about 
today. I would ask that you look at it and support it.
    Thank you.
    [The prepared statement of Ms. Unverzagt follows:]
                Prepared Statement of Beth A. Unverzagt
    Research over the last two decades confirms the positive impact of 
afterschool programs on children, families and communities nationwide. 
At the national, State and local levels there is increased attention to 
and demand for schools and afterschool/summer programs to genuinely 
collaborate. That process will require multiple institutions and people 
to commit to being boundary crossers, to be open to creative solutions 
as they discover and design a new day for learning that supports all of 
America's children and youth.
    In Oregon and across the Nation afterschool and summer learning 
programs have been able to provide engaging STEM education 
opportunities to young people by making science, mathematics, 
technology and engineering subjects come alive through hands-on, 
experiential learning. The Oregon afterschool network believes that the 
innovative programs and strategies that have been developed locally can 
and should be scaled up and integrated with ESEA to benefit students.
    Whether robotics, rocketry, designing apps for mobile devices, 
gardening, water conservation, cooking, crime scene investigation (CSI) 
simulations, or other programs, out of school programs can complement 
school day lessons while encouraging students to embrace the scientific 
method, and have fun.
    An expanded learning opportunity connected to the school day is NOT 
more school after school (Einstein's definition of insanity, after all) 
using project-, service- and place-based learning with culminating 
events such as exhibitions, presentations, and competitions (e.g., 
FIRST LEGO robotics, www.usfirst.org nationally or www.ortop.org in 
Oregon).
    There are many challenges facing education from our perspective, 
and they are:

    <bullet> The challenge to the widespread adoption of STEM 
afterschool has been the professional development opportunities for 
staff and consistent implementation funding. Too often professional 
development opportunities are limited to teacher. Opening these 
opportunities up to afterschool educators would be helpful.
    <bullet> Program funds not tied to ``innovation'' or ``research'' 
but to quality design & delivery by well-trained, well-equipped staff 
for both afterschool and certain in-school programs. Existing research 
does tell us the best practices for high quality, effective design & 
delivery of programs.
    <bullet> Coordination and communication between education providers 
(schools, afterschool), parents, teachers and community both for better 
student access to programs, more effective delivery to students and for 
some form of accountability, preferably longitudinal tracking of 
student outcomes and the use of higher-order assessment than multiple-
guess tests.
    <bullet> Allow flexibility, so that if one community has a very 
active 4-H program and another has a very active school-based science 
club, each community gets to leverage its particular resources and does 
not have to re-invent any wheels, only connect them to the vehicle. 
This is particularly important for rural areas.
    <bullet> Instructional time during the school day for STEM, 
emphasizing deeper rather than broader knowledge, using application of 
knowledge to integrate and contextualize knowledge and skills (answer 
``When will I ever use THIS in my life? Why should I care about THIS?'' 
with engaging projects using math, science, engineering, computer, 
language & social skills).
    <bullet> The most important thing for the re-authorization of ESEA 
would be to ensure afterschool and summer learning opportunities remain 
as the key funded programs under the 21st Century Community Learning 
Centers initiative in Title IV Part B of ESEA. We encourage and support 
additional funding for science education that connects school and 
afterschool/summer programs.

    We are beginning to recognize that organized and intentionally 
designed non-school hour programs not only help keep communities safe, 
but they keep kids engaged in learning which supports collaboration, 
problem solving, creative thinking, and helps develop life skills and 
enrichment opportunities that they would otherwise not be able to 
access.
                                 oregon
    Our Oregon Department of Education is currently drafting a 
Statewide Framework for STEM Education. The initial input for the 
framework was provided by representatives from business and education 
including organizations that focus on STEM education outside of the 
school day. We anticipate that the framework will be available for 
broader review in September 2011. The framework will:

    1. Define STEM education and goals related to preparation for 
college, careers, and citizenship.
    2. Identify critical components needed for improvement in STEM 
education.
    3. Describe a mechanism for linking educators and communities 
interested in improving STEM education.

    A brief summary of the existing work on each of these sections is 
included here.
             proposed definition for oregon stem education
    ``An approach to teaching and lifelong learning that emphasizes the 
natural interconnectedness of the four separate STEM disciplines. The 
connections are made explicit through collaboration between educators 
resulting in real and appropriate context built into instruction, 
curriculum, and assessment. The common element of problem solving is 
emphasized across all STEM disciplines allowing students to discover, 
explore, and apply critical thinking skills as they learn.''
                    goals for oregon stem education
    <bullet> Improve student performance in STEM related content;
    <bullet> Increase interest in and improve preparation for STEM 
careers; and
    <bullet> Become proficient in STEM concepts necessary to make 
personal and societal decisions.
                  components of oregon stem education
    Improving STEM education in Oregon will require more than a new 
curriculum, more professional development, or enhanced after-school 
activities. The Components of Oregon STEM Education describe the 
broader set of issues that need to be addressed so that the individual 
actions of schools, districts, State agencies, educational program 
providers, businesses, and communities provide maximum impact. Key 
components of Oregon STEM Education include Community Engagement, 
Effective Instruction, Effective Leadership, Evaluation and Research, 
Effective Learning Environments, and Coherent Standards and Policies.
Community Engagement
    STEM education is the responsibility of a community that extends 
beyond schools. Business and industry has an interest in STEM education 
in order to grow a literate and innovative workforce. Wide ranges of 
organizations provide STEM learning opportunities through classes, 
competitive events, and mentorships. Parents and volunteers provide 
personal knowledge and experience that can engage and inspire students.
    Engagement of the community in STEM education requires 
communication and collaboration. Community members who are not part of 
the school setting need to know how to interact with schools, teachers, 
and students in a meaningful and sustainable fashion. Schools need to 
understand what resources are available and how to best incorporate 
those resources into the educational setting. Collaborations between 
schools and communities can also provide positive support for policy.
Effective Instruction
    Teachers are central to effective STEM instruction whether they are 
teaching science or mathematics in a school, coaching a robotics team, 
leading a 4-H club, or guiding a group through a museum. A STEM teacher 
can be someone who has completed a professional education program, 
attended training sessions, or accumulated life experience in STEM 
disciplines. They can hold a variety of credentials and teach in a 
variety of settings. STEM teachers create opportunities for students to 
make connections between science, technology, engineering and 
mathematics and use that knowledge and critical thinking skills as they 
problem solve.
    In order to improve teacher effectiveness in STEM instruction 
teachers need professional development opportunities to improve their 
knowledge and skills. Additionally, teachers need to be able to 
collaborate with others on the development of STEM learning 
opportunities for students, improve practice through lesson studies, 
and have access to coaching support.
Effective Leadership
    Effective Leadership is critical to ensuring equitable access to 
high quality STEM teaching and lifelong learning. Leaders may come from 
both inside and outside of the schools. An effective leader may be a 
teacher leader, a school level administrator, a district level 
curriculum specialist, a regional professional development provider, 
ESD or school district superintendent, State level education 
specialist, a community member, or an industry representative.
    Effective Leadership requires the engaging of others about the 
importance of STEM, sharing success stories based on data, and building 
capacity by helping others succeed in providing STEM learning 
opportunities for students. Effective Leadership includes focused 
instructional leadership as well as developing and implementing 
coherent policies, advocacy for equity, providing and supporting 
effective learning environments, establishing and maintaining the 
infrastructure and facilities necessary to support teachers in the 
delivery of effective STEM instruction, building connections to 
community, parents, and businesses, and ensuring accountability at 
every level.
Evaluation and Research
    Evaluation of the Oregon STEM Framework is essential for monitoring 
the impact of this work and fine-tuning based on lessons learned. Our 
ability to illustrate what STEM learning looks like and the impact on 
student achievement is imperative for developing sustainable STEM 
learning opportunities for our students. Research will help us as we 
provide training for leadership and teachers by providing information 
about successful strategies, efficiencies, and greater ability to 
communicate the importance of STEM to our students, parents and 
community members. Evaluation includes monitoring progress and lessons 
learned in addition to identification of best practices in STEM.
Effective Learning Environments
    Both the physical and social environments influence STEM learning. 
With an emphasis on problem solving and critical thinking in STEM, 
students need to be part of a social environment that encourages 
dialogue with teachers and other students. Effective learning requires 
an environment that includes appropriate pacing of instruction, 
grouping of students and feedback. Careful consideration of physical 
layout of classrooms or learning environments, including appropriate 
tools and technologies, is required to support social aspects of 
learning.
Coherent Standards and Policies
    Coherent standards and policies help remove barriers to 
implementation and provide support for development of interconnected 
STEM education programs. Standards define what is both expected to be 
taught and learned at each grade level. Coherent standards help support 
educators in understanding how to meet these standard expectations 
within a STEM learning environment.
    Policies that influence STEM learning may be local, regional, 
statewide, public, or private. These policies need to be reviewed to 
make sure that they support rather than set up barriers to STEM 
teaching and learning.
                         linking stem educators
    Oregon is engaging in a networking model for promoting changes in 
STEM education statewide that are effective and coordinated. Similar 
models are at various stages of development in other States such as 
Ohio, New Mexico, North Carolina, and Massachusetts. In these States, 
regional networks of schools are being formed to support coherent 
improvement in STEM education. This concept is identified by the 
Carnegie Foundation as Networked Improvement Communities and is 
described in some detail in a document that can be found at  http://
www.carnegiefoundation
.org/sites/default/files/bryk-gomez_building-nics-education.pdf.
                     other stem education resources
    <bullet> Fall 2010 data reference links--http://opas.ous.edu/
Work2009-2011/State-of-Ed-OR-refs.pdf.
    <bullet> Exploring Engineering and Computer Science brochure, 
locally tuned for Oregon--http://opas.ous.edu/Work2009-2011/Marketing/
E-Week-explore-2011.pdf.
    <bullet> K-12 STEM education opportunities in & around the Portland 
Metro area--www.technosciencesupersite.org.
    State Educational Technology Directors Association Class of 2020 
Action Plan--STEM Whitepaper: http://www.setda.org/web/guest/2020/stem-
education.
    National Academies Press Successful K-12 STEM Education: 
Identifying Effective Approaches in Science, Technology, Engineering, 
and Mathematics: http://www.nap.edu/catalog.php?record_id=131581. 
Reflect on your experiences (as an employer/ teacher/ administrator/ 
parent/ student) trying to get/working to offer encouragement for, and 
greater opportunities to Oregon students in science, mathematics, 
technology and engineering.

    Senator Merkley. Thank you very much. Thank you for your 
testimony.
    We have 10 minutes left. And during those 10 minutes, I 
just wanted to open this up. You have all heard each other and 
perhaps that produced some thoughts or comments or insights. I 
will ask you to keep it very brief so that we can bounce back 
and forth and utilize this last 10 minutes.
    Anybody want to jump in? Anything on your mind from having 
heard this dialogue on either side?
    Yes, Mr. Hopson.
    Mr. Hopson. I think there is two distinct sides of this, as 
we talk about STEM and being competitive internationally. I 
mean, I do believe that America, we all know, has fallen way 
behind. So STEM and the research and work around that is very, 
very necessary.
    But it certainly doesn't need to be an either/or because 
many of us are dealing with the other end of the spectrum. We 
are just trying to get a kid graduated, trying to keep them in 
the school and become a positive contributing citizen.
    So I think both are very, very important, and we do need to 
have emphasis on both because, as a nation, we can't compete 
unless we do a much better job on what the individuals across 
from me are talking about. But at the same time, if we can't 
keep more kids in school, we won't even have the sheer numbers 
to be able to compete.
    Senator Merkley. OK. Thank you.
    Yes.
    Ms. Sipe. I appreciate all of the feedback today, 
especially regarding STEM and student supports. The one thing I 
would like to emphasize is to remember the needs of rural and 
remote students in these areas specifically.
    As I watched the science demonstration, my 14-year-old son 
is a scientist, but he will never have access to this type of 
program because we do not have this program available, nor do 
we have mentors in our area to provide those services to kids. 
And so, if we are going to be requiring these types of 
activities, we need to remember access as well, please.
    Senator Merkley. Thank you.
    So it is important to recognize the challenges in a very 
different, rural community. Intel is a long ways away from 
Umatilla.
    Thank you.
    Go ahead and take the microphone so we can get you on 
record.
    Mr. Angulo. Thomas Friedman, the writer for the New York 
Times, had an article yesterday called ``Start You Up.'' I 
happened to see him on C-SPAN at this Aspen Institute Fair of 
Ideas or a meeting of ideas, and he was talking about what is 
happening in our new global economy, of how our American 
students are just really falling further and further behind, 
compared with the Chinese and the South Koreans and the Germans 
and Russians.
    You know, he talks about the skills of the future, and I 
just want to thank you, Mr. Fuller, because you are certainly 
putting us closer to that kind of thinking, that kind of 
changing the paradigm of public education in the United States.
    Senator Merkley. Thank you, Eduardo.
    Yes.
    Mr. Fuller. I just wanted to respond to what Superintendent 
Sipe said. There is actually--having done a lot of fundraising 
work--there is a ton of money out there in industry looking to 
get science programs in rural schools and a great opportunity 
to reach out to I know that especially robotics teams, but also 
a lot of other organizations are very willing to help expand 
their programs.
    If you would like to get in contact with one of us, I am 
sure we can find a way to get a robotics team somewhere in your 
school. I have found tons of money for rural schools. So it is 
out there. You have to know where to look for it.
    Senator Merkley. Thank you very much, Nathan.
    Ms. Anderson. I was just going to compliment Mr. Fuller on 
your amazing presentation. I think you are an amazing example 
of how important it is to hear from students. You are the 
reason that we are all here talking about education, and 
without your voice, we are missing a huge element.
    Thank you so much. And again, you reminded us how important 
outcomes are. And Intel is an advocate for good assessments, 
but that is just a piece. We need to look at how we can make 
sure students like Mr. Fuller and others are able to connect 
and find the education pathway that they are going to take to 
be successful.
    So we can't forget that there is life after K-12. We need 
to make the connections and make it a whole system.
    Senator Merkley. President Stueber.
    Ms. Stueber. I appreciate the dialogue that you created 
this morning, and one of the most uplifting things for me about 
coming today is hearing from so many colleagues from so many 
different approaches, all with the same intent, which is 
helping our students.
    I guess my inspiration would lead me to encourage you in 
this reauthorization language and in thinking about all the 
ways that we advocate for STEM to make sure the tent is very 
large. It will take all of us. The need is so great, and we all 
need to be growing in the same direction to be effective.
    Your leadership and guiding legislation that enables that 
will be really valuable.
    Senator Merkley. You know, one of the programs that is an 
afterschool program is Chess for Success. And Chess for Success 
is kind of at an opposite end of the spectrum, if you will, 
from the FIRST Robotics in that it is often run without any 
real cost resources--a classroom, a volunteer mentor, and some 
chessboards.
    There was a study done on Chess for Success here in Oregon 
that showed it had a pretty positive impact. I just wanted to 
ask if anyone here has had association with that approach, as 
an additional enrichment program?
    Yes, Beth.
    Ms. Unverzagt. Yes, I have. There are many Chess for 
Success programs that are part of other kinds of enrichment and 
activity within a more comprehensive program. So they don't 
really stand alone. They stand in with other activities within 
schools, within the afterschool program.
    There are hundreds of kids doing chess all over Oregon, and 
we see the same thing with Lego FIRST Robotics infused into the 
afterschool program itself. So they have both small first 
through third grade teams, and then fourth through fifth grade 
teams where Legos are a part of the 10-week curriculum.
    And then we also see that there are providers like OMSI or 
Mad Scientist or others that are coming into and being part of 
more comprehensive programming.
    Senator Merkley. While you have the microphone, are there 
other things in the afterschool enrichment world that are 
particularly transportable models into the rural areas that may 
not have, say, industrial manufacturing partners and so forth 
nearby?
    Ms. Unverzagt. There definitely are. We see a lot of 
creativity. For example, one of our partners is Fish and 
Wildlife, and they offer all kinds of training and 
opportunities within rural communities. We have fishing in 
afterschool. We have safety classes.
    There are lots of environmental things being done within 
rural afterschool. Some areas that have arts associations or 
arts organizations take really strong leadership in afterschool 
around the arts. So it really is a wide spectrum.
    We are piloting a program that NASA created, which is After 
School Universe. So we are actually training with a particular 
curriculum that is going to go through sixth through eighth 
grade to 21st century and then also to SMILE and COSI, so the 
partners within science.
    Senator Merkley. Time for one last comment. Anyone else--
yes?
    Mr. Hopson. Just to respond to your question about Chess 
for Success, we have had some experience with that. But what I 
would say, as it relates to whether it is Chess for Success or 
Lego Robotics, there are pieces that we talk about--the who, 
the how, and the what.
    Chess for Success is a what. Lego Robotics is a what. They 
are good what's, but they are only as good as the who that is 
running the program and how they interact with kids.
    The key to all of this is the interaction with young people 
on a daily basis. What we do does have some relevance, but it 
is not the major part of this, as far as I am concerned.
    There are a lot of different afterschool efforts all around 
the country that people talk about. But if you don't have the 
right who involved with that and how they have learned to 
interact with young people, it still would not be a success.
    Senator Merkley. I think that that is right. Oh, do you 
have a comment?
    Ms. Unverzagt. I am going to agree with Mr. Hopson that, in 
fact, the No. 1 thing that makes a program successful is the 
who. And research bears it out, No. 1. They need to be trained. 
They need supports so that they can continue to do that kind of 
outreach and support.
    In your team, you have someone who supports you in your 
team.
    Senator Merkley. On that final note echoed on both sides of 
the room, I think that is a good point to conclude this 
hearing.
    Before I gavel the hearing closed, I really want to thank 
everyone for coming and attending.
    Jeanne, I want to check in with you for a moment. Did folks 
have a chance to make a note on the way in if they want to 
followup with specific comments?
    OK. Great. So I realize that in a formal structure of a 
Senate hearing, we don't have the open forum. So because that 
is not part of the Senate, we are going to followup with 
everyone who marked that they have comments and inputs on the 
sign-up sheet.
    And if you didn't mark that but want to now, please connect 
with Jeanne Atkins on your way out, and we will make sure we 
followup with you.
    Education is an undertaking of our entire society, 
certainly of those within our schools, those who are supporting 
programs within our schools, those are strengthening our 
families. It is the complete community effort and perhaps the 
very most important thing we do for the success of the next 
generation.
    Thank you for being a part of this, both as participants in 
the audience and for those of you who served on the panel. I 
appreciate it very much and applaud the work you are doing and 
look forward to the ongoing conversation. Because this is not 
just one bill up before a legislature, rather this is an 
ongoing conversation about the health and quality of our 
society, success of our children, and the strength of our 
economy.
    And with that, I will gavel closed this hearing of the 
Senate Health, Education, Labor, and Pensions Committee.

    [Whereupon, at 12:00 p.m., the hearing was adjourned.]

                                   

      

</pre></body></html>
